<html>
<title> - HEARING TO REVIEW IMPLEMENTATION OF USDA FARM BILL RESEARCH PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  HEARING TO REVIEW IMPLEMENTATION OF USDA FARM BILL RESEARCH PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2019

                               __________

                           Serial No. 116-20
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                           ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
42-598 PDF             WASHINGTON : 2020 
                          
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

               STACEY E. PLASKETT, Virgin Islands, Chair

ANTONIO DELGADO, New York            NEAL P. DUNN, Florida Ranking 
TJ COX, California                   Minority Member
JOSH HARDER, California              GLENN THOMPSON, Pennsylvania
ANTHONY BRINDISI, New York           VICKY HARTZLER, Missouri
JEFFERSON VAN DREW, New Jersey       DOUG LaMALFA, California
KIM SCHRIER, Washington              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               TED S. YOHO, Florida
SALUD O. CARBAJAL, California        MIKE BOST, Illinois
JIMMY PANETTA, California            JAMES COMER, Kentucky
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
AL LAWSON, Jr., Florida

             Brandon Honeycutt, Subcommittee Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Dunn, Hon. Neal P., a Representative in Congress from Florida, 
  opening statement..............................................     4
Plaskett, Hon. Stacey E., a Delegate in Congress from Virgin 
  Islands, opening statement.....................................     1
    Prepared statement...........................................     3

                                Witness

Hutchins, Ph.D., Scott, Deputy Under Secretary for Research, 
  Education, and Economics, U.S. Department of Agriculture, 
  Washington, D.C................................................     6
    Prepared statement...........................................     8
    Supplementary material.......................................    35
    Submitted questions..........................................    36


  HEARING TO REVIEW IMPLEMENTATION OF USDA FARM BILL RESEARCH PROGRAMS

                              ----------                              


                       THURSDAY, OCTOBER 17, 2019

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Stacey 
E. Plaskett [Chair of the Subcommittee] presiding.
    Members present: Representatives Plaskett, Delgado, Cox, 
Harder, Brindisi, Schrier, Pingree, Carbajal, Panetta, Peterson 
(ex officio), Dunn, Hartzler, LaMalfa, Davis, Bost, Comer, and 
Baird.
    Staff present: Kellie Adesina, Malikha Daniels, Brandon 
Honeycutt, Ricki Schroeder, Patricia Straughn, Jeremy White, 
Dana Sandman, and Jennifer Yezak.

  OPENING STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN 
                  CONGRESS FROM VIRGIN ISLANDS

    The Chair. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research entitled, Hearing To 
Review Implementation of USDA Farm Bill Research Programs, will 
come to order. Thank you very much to Dr. Scott Hutchins who is 
here with us this morning, and I also want to thank the 
Chairman of the full Committee on Agriculture, Collin Peterson, 
who is also with us as we begin.
    Before we get started, I would just like to take a moment, 
as a Member of Congress, as an American citizen, to reflect on 
the passing of Elijah Cummings. Elijah Cummings was, of course, 
as we all know, not only a Member of Congress, but the Chair of 
the Oversight and Reform Committee here in this 116th Congress. 
He came to Congress many years ago, representing his beloved 
district of Baltimore. But I believe that he was much more than 
that to most of us here on this dais and here in this Congress; 
whether they be Members of Congress, staff, lobbyists, Federal 
employees, anyone who came in contact with Mr. Cummings. He was 
a gentleman. He was an angel among many of us, oftentimes who 
maybe wanted to be not such an angel. He always operated with 
fairness, was always very thoughtful in his deliberations, 
always tried to find common ground, even in one of the most 
contentious and partisan committees that this Congress has. He 
worked across the aisle with individuals that people were 
flabbergasted at how he had come to have personal relationships 
with those individuals on the other side. And even among some 
of the Members of his own caucus who didn't agree with him 
oftentimes in the manner in which he attempted to keep his 
committee above the rancor of what is happening here in 
Washington. He was really a mentor for me. This is my third 
term on the Oversight Committee. This last term, I waived on to 
the Committee and sat right below him on the dais. And in 
sitting below him, I told him, you are a good guy. I will be 
the bad guy for you. Because he was just always so kind. Many 
of us felt that oftentimes that may have been taken advantage 
of, because he wanted to do the right thing all the time.
    But we know that the father above is happy to have him with 
him now, and we pray for Maya, his wife, and for his three 
children, and for his family, and especially for the people of 
Baltimore, as I know they are grieving as well, because he 
always represented his hometown first of all.
    And with that, let us just take a moment to reflect on him.
    Again, thank you for joining us as we review the USDA's 
implementation of the 2018 Farm Bill research programs with 
Deputy Under Secretary for Research, Education, and Economics, 
Scott Hutchins.
    Strong investments in public agriculture research have 
historically allowed our farmers, ranchers, and rural 
communities to remain competitive and increase their overall 
productivity. These investments are more critical now than 
ever, with the agriculture sector attempting to adapt to a 
changing climate and manage for increasingly volatile markets.
    In June, I hosted a hearing in which Members of this 
Subcommittee heard directly from farmers and researchers about 
the need for continued scientific advancements. Their message 
was clear: farmers and ranchers benefit from investments in 
public agricultural research and strong extension services. I 
believe that this Subcommittee and the full House Agriculture 
Committee understands the value of trusted science. The 2018 
Farm Bill emphasized our commitment to this cause, and ensured 
that U.S. farmers and ranchers will have the tools necessary to 
deal with future challenges. This can be seen in the increased 
support for the Organic Agriculture Research and Extension 
Initiative, continued support for programs like the Specialty 
Crop Research Initiative, and the Agriculture and Food Research 
Initiative, and the creation of new programs to support urban 
agriculture and students at 1890 institutions.
    My district has benefitted from sustained investment in 
local researchers. Last year, the University of the Virgin 
Islands received over $3 million from the National Institute of 
Food and Agriculture, NIFA. These funds have been critical in 
helping my farmers and ranchers overcome challenges associated 
with climate change, tropical pest pressures, and resource 
management.
    Following passage of the 2018 Farm Bill, this Subcommittee 
has turned its focus to USDA's implementation efforts. It is my 
goal to ensure USDA is swiftly and efficiently getting 
resources into the hands of researchers. At a time of continued 
farm stress, it should be USDA's top priority to support 
research efforts that directly benefit farmers.
    We cannot discuss farm bill implementation; however, 
without addressing what I believe will be a major impediment to 
USDA's ability to effectively administer programs and complete 
timely economic studies, the relocation of NIFA and ERS outside 
the capitol region.
    In a previous hearing, we heard farmers and researchers 
express apprehension about the relocation proposal. They cited 
a lack of stakeholder engagement and strong concerns over 
program continuity as reasons for their opposition to Secretary 
Perdue's proposal. Chair Marcia Fudge of the Nutrition 
Subcommittee and I sent a letter to the Secretary raising these 
concerns, and I can honestly say, I was disappointed in his 
response and failure to outline a clear, robust plan for how 
these agencies would prevent gaps in services.
    Unfortunately, I believe my fears are becoming true. This 
week, I received updates on staffing levels and status of 
Fiscal Year 2019 funding. ERS has appropriated funding to 
support 329 employees, but currently a total of 214 positions 
are vacant, a vacancy rate of 65 percent. NIFA is in even worse 
shape, it appears. Out of 344 appropriated positions, 264 of 
those 344 are currently vacant, a vacancy rate of over 76 
percent. I was told these extreme staff shortages mean some 
grant recipients will not receive their funds until March of 
2020. These gaps in service reinforce the notion that this 
relocation was hurried, misguided, and mismanaged. ERS and NIFA 
have been undermined at the very time these agencies require 
knowledgeable staff to implement farm bill changes, administer 
grants, and complete critical economic reports. Our farmers and 
ranchers deserve better, and so do the valued career public 
servants who left their positions within ERS and NIFA for other 
opportunities.
    As Subcommittee Chair, I expect ERS and NIFA to quickly be 
restored to their former prominence. Dr. Hutchins, the Members 
of this Subcommittee are looking to you and Secretary Perdue to 
work expeditiously and deliberately to prevent further gaps in 
service. This must be a top priority for you and Secretary 
Perdue, and I expect to see tangible results, rather than hear 
of plans and other types of lip service. If results are not 
delivered and programs continue to suffer, we will continue 
this discussion in the future.
    [The prepared statement of Ms. Plaskett follows:]

 Prepared Statement of Hon. Stacey E. Plaskett, a Delegate in Congress 
                          from Virgin Islands
    Good morning, and thank you for joining us today as we review 
USDA's implementation of the 2018 Farm Bill research programs with 
Deputy Under Secretary for Research, Education, and Economics Scott 
Hutchins.
    Strong investments in public agriculture research have historically 
allowed our farmers, ranchers, and rural communities to remain 
competitive and increase their overall productivity. These investments 
are more critical now than ever, with the agriculture sector attempting 
to adapt to a changing climate and manage for increasingly volatile 
markets.
    In June, I hosted a hearing in which Members of this Subcommittee 
heard directly from farmers and researchers about the need for 
continued scientific advancements. Their message was clear--farmers and 
ranchers benefit from investments in public agriculture research and 
strong extension services.
    I believe that this Subcommittee, and the full House Agriculture 
Committee, understands the value of trusted science. The 2018 Farm Bill 
emphasized our commitment to this cause and ensured that U.S. farmer 
and ranchers will have the tools necessary to deal with future 
challenges. This can be seen in the increased support for the Organic 
Agriculture Research and Extension Initiative, continued support for 
programs like the Specialty Crop Research Initiative and the 
Agriculture and Food Research Initiative, and the creation of new 
programs to support urban agriculture and students at 1890 
institutions.
    My district has benefitted from sustained investments in local 
researchers. Just last year, the University of the Virgin Islands 
received over $3 million from the National Institute of Food and 
Agriculture (NIFA). These funds have been critical in helping my 
farmers and ranchers overcome challenges associated with climate 
change, tropical pest pressures, and resource management.
    Following passage of the 2018 Farm Bill, this Subcommittee has 
turned its focus to USDA's implementation efforts. It is my goal to 
ensure USDA is swiftly and efficiently getting resources into the hands 
of researchers. At a time of continued farm stress, it should be USDA's 
top priority to support research efforts that directly benefit farmers.
    However, we cannot discuss farm bill implementation without 
addressing what I believe will be a major impediment to USDA's ability 
to effectively administer programs and complete timely economic 
studies--the relocation of NIFA and ERS outside the National Capitol 
Region.
    In a previous hearing, we heard farmers and researchers express 
apprehension about the relocation proposal. They cited a lack of 
stakeholder engagement and strong concerns over program continuity as 
reasons for their opposition to Secretary Perdue's proposal. Chair 
Marcia Fudge and I sent a letter to the Secretary raising these 
concerns, and I can honestly say I was disappointed in his response and 
failure to outline a clear, robust plan for how these agencies would 
prevent gaps in services.
    Unfortunately, I believe my fears are becoming true. This week, I 
received updates on staffing levels and the status of Fiscal Year 2019 
funding. ERS has appropriated funding to support 329 employees, but 
currently, a total of 214 positions are vacant--a vacancy rate of 65%. 
To put it bluntly, NIFA is in even worse shape. Out of 344 appropriated 
positions, 264 are currently vacant--a vacancy rate over 76%. I was 
told these extreme staff shortages mean some grant recipients will not 
receive their funds until March 2020.
    These gaps in service reinforce the notion that this relocation was 
hurried, misguided, and mismanaged. ERS and NIFA have been undermined 
at the very time these agencies require knowledgeable staff to 
implement farm bill changes, administer grants, and complete critical 
economic reports. Our farmers and ranchers deserve better, and so do 
the valued career public servants who have left their positions within 
ERS and NIFA for other opportunities.
    As Subcommittee Chair, I expect ERS and NIFA to quickly be restored 
to their former prominence. Dr. Hutchins, the Members of this 
Subcommittee are looking to you and Secretary Perdue to work 
expeditiously and deliberately to prevent further gaps in service. This 
must be a top priority for you and Secretary Perdue, and I expect to 
see tangible results rather than hear lip service. If results are not 
delivered and programs continue to suffer, we will continue this 
discussion in the future.
    Now, I'd like to recognize the distinguished Ranking Member, Mr. 
Dunn of Florida, for any opening remarks he would like to make.

    The Chair. Now I would like to recognize the distinguished 
Ranking Member, Mr. Dunn of Florida, for any opening remarks he 
would like to make.

  OPENING STATEMENT OF HON. NEAL P. DUNN, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Mr. Dunn. Thank you very much, Madam Chair, and I wish to 
associate myself with your very gracious comments concerning 
Congressman Cummings.
    Good morning, and welcome, Dr. Hutchins. Thank you for your 
service and spending some of your valuable time with us today. 
I look forward to your testimony, and for the chance to hear an 
update on your progress implementing the 2018 Farm Bill.
    Those of us representing rural areas know that times are 
still tough for agricultural producers, farmers, and ranchers, 
and they face unbelievable risks from devastating weather 
events and market uncertainty, and everything in between.
    It is important that we have a strong agricultural research 
infrastructure. We crafted the 2018 Farm Bill with this in 
mind. While we faced significant budget pressures, I am proud 
that the research title was an area that saw an increase in 
funding and several positive updates to keep programs that our 
producers rely on.
    Of particular importance to my State of Florida, the Citrus 
Disease Research and Extension Program, was reauthorized and 
funded, continuing our commitment to fighting the citrus 
greening disease that is still devastating the Florida industry 
and threatening Texas and California as well.
    I am also proud that we secured important priorities for 
land-grant universities, including a new program to fund long-
deferred maintenance projects and language streamlining some of 
the onerous reporting requirements.
    The farm bill reauthorized the Farm and Ranch Stress 
Assistance Network, reestablishing an important program that 
will direct behavioral health resources to our farmers and 
ranchers who are in need.
    Finally, I am proud that the farm bill adopts several 
provisions to continue to provide resources and make a level 
playing field for the 1890 land-grant universities.
    Dr. Hutchins, I am also interested in hearing an update on 
the relocation of the NIFA project, and the Economic Research 
Service. Perhaps you can put some granular information in there 
about money saved and whatnot.
    As you know, we had a hearing on this subject just before 
you announced the Secretary's selection of Kansas City, and the 
work done by those agencies is important to the future success 
of the agricultural industry nationwide. As such, I am sure you 
will keep us informed about how that is unwinding.
    It is unfortunate we still see some efforts to derail the 
Secretary's decision in this regard. I am afraid presidential 
politics has crept into even this, which is usually a very 
bipartisan issue. I look forward to working with you to help 
fulfill the USDA's research mission, and will do my part to 
ensure that you have resources necessary.
    Madam Chair, I yield back.
    The Chair. Thank you.
    I would like to welcome the USDA Deputy Under Secretary for 
Research, Education, and Economics, Dr. Scott Hutchins. In this 
role, Dr. Hutchins has oversight over the Office of the Chief 
Scientist, the Agricultural Research Service, Economic Research 
Service, National Agricultural Statistics Service, and the 
National Institute of Food and Agriculture. Dr. Hutchins 
received a B.S. in entomology from Auburn University, an M.S. 
in entomology from Mississippi State University, and a Ph.D. in 
entomology from Iowa State University. Thank you for being here 
with us.
    We will now proceed to hearing your testimony. You will 
have 5 minutes. When 1 minute is left, the light will turn 
yellow as a signal for you to start wrapping up your testimony.
    Dr. Hutchins, please begin when you are ready.

       STATEMENT OF SCOTT HUTCHINS, Ph.D., DEPUTY UNDER 
    SECRETARY FOR RESEARCH, EDUCATION, AND ECONOMICS, U.S. 
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Hutchins. Good morning, Chair Plaskett, Ranking Member 
Dunn, and Members of the Subcommittee. Thank you for the 
opportunity to speak to you today to discuss agriculture 
research and implementation of related provisions in the 2018 
Farm Bill.
    The Research, Education, and Economics Mission Area at the 
United States Department of Agriculture is an incredible team 
and powerful force for the good of U.S. agriculture. We have 
fantastic success stories to tell and a mission that is really 
never-ending: to ensure the long-term well-being of the 
American agriculture system, as a provider of the most 
affordable, abundant, and safe supply of food and fiber in the 
world.
    The REE Mission Area is comprised of the Office of the 
Chief Scientist and four agencies as indicated: the 
Agricultural Research Service, the Economic Research Service, 
the National Agricultural Statistics Service, and the National 
Institute of Food and Agriculture. Each of these entities 
provides unique products and services to U.S. agriculture, and 
work as a team within REE.
    The Agricultural Research Service is USDA's primary 
intramural research agency. ARS has approximately 2,000 
scientists and post-doctoral researchers, and 6,000 additional 
staff supporting over 690 research projects at over 90 
locations across the United States. These researchers produce 
an immense amount of scientific and technical knowledge in 
support of national agricultural priorities, and without a 
doubt, ARS has and continues to produce a wide range of 
scientific breakthroughs that benefit U.S. agricultural 
producers and consumers.
    The Economic Research Service continues to be a trusted 
source of high quality and objective economic research to 
inform and enhance public- and private-sector decision-making. 
ERS reports provide information to decision makers across the 
Federal Government and external stakeholders that create 
significant insights on agricultural markets.
    The mission of the National Agricultural Statistics Service 
is to provide timely, accurate, and useful statistics for U.S. 
agriculture. They conduct hundreds of surveys every year and 
produce reports on the entire agricultural sector, including 
production and supplies of food and fiber, prices paid and 
received by farmers, farm labor and wages, farm finances, 
chemical usage, and changes in the demographics of U.S. 
agriculture.
    The National Institute of Food and Agriculture is USDA's 
extramural research agency, providing funding and leadership to 
support research, education, and extension programs that 
address national agriculture priorities. NIFA primarily does 
this through competitive and formula grants. The competitive 
grants are comprised of different grant programs, with the 
largest being the Agriculture and Food Research Initiative, or 
AFRI. With AFRI grants, researchers across the country conduct 
research and find solutions to problems that face producers and 
consumers. Formula grants go to land-grant universities to 
support them in conducting agriculture research and extension.
    In addition to serving as Deputy Under Secretary, I oversee 
the Office of the Chief Scientist. The Office supports 
scientific prioritization and coordination across the entire 
department, and convenes the USDA Science Council. The Council 
facilitates cross departmental scientific coordination and 
collaboration, and ensures that the Department and its 
stakeholders are held to the very highest standards of 
intellectual rigor and scientific integrity.
    Across the REE mission, we are fully committed to 
supporting research that ensures U.S. producers will be able to 
adapt to changes in climate and continue to develop and 
advocate for a wide range of sustainable intensification 
practices.
    For example, ERS researchers recently published a study 
that examined the potential effects of climate change on risk 
management, and ARS published over 500 scientific articles 
related to climate change just last year alone.
    So, to be clear, USDA openly supports and strongly 
encourages the work done by our scientists in all the agencies 
in these critical areas of our research.
    Pertaining to the implementation of the 2018 Farm Bill, 
each of the four REE agencies and the Office of the Chief 
Scientist were included in the farm bill, but the vast majority 
of the provisions pertained to NIFA. And some notable 
accomplishments in NIFA so far include publishing and updating 
matching requirements, charts, and indirect cost charts for 
stakeholders to inform changes from the 2018 Farm Bill made to 
NIFA's many grant program requirements. They have published the 
RFA for beginning farmer and rancher program development, and I 
am pleased to say those awards were just announced yesterday. 
They published the RFA for the 1890 scholarship program, which 
was championed by Representative Scott, with commitment to 
ensure that these funds were available for 1890 land-grant 
institutions.
    I am also pleased to report that we recently completed the 
relocation of ERS and NIFA to the Kansas City region on 
September 30. As you recall, in August of 2018 Secretary Perdue 
announced that the Department would be relocating a portion of 
these agencies outside of the National Capitol Region, whilst 
maintaining their headquarters in D.C. We are confident this 
relocation will improve USDA's ability to attract and retain 
highly qualified staff with training and interest in 
agriculture, placing these important USDA agencies closer to 
many of our stakeholders, and provide a more efficient long-
term operating model.
    At present, both agencies are focused on hiring for vacant 
positions, and have already had success. Be assured that we are 
committed to both and that ERS and NIFA will thrive in their 
new location and continue their service to U.S. agriculture.
    In conclusion, thank you for your continued support of 
agricultural research, education, and economics at USDA. We do 
truly strive to fulfill Secretary Perdue's mantra of: ``Do 
right and feed everyone,'' and I look forward to answering your 
questions today about the 2018 Farm Bill. Thank you, ma'am.
    [The prepared statement of Dr. Hutchins follows:]

Prepared Statement of Scott Hutchins, Ph.D., Deputy Under Secretary for 
  Research, Education, and Economics, U.S. Department of Agriculture, 
                            Washington, D.C.
Agricultural Research and 2018 Farm Bill Implementation
    Good morning. Chair Plaskett, Ranking Member Dunn, and Members of 
the Subcommittee. Thank you for the opportunity to speak to you all 
today to discuss agricultural research and implementation of related 
provisions in the 2018 Farm Bill. The Research, Education, & Economics 
(REE) Mission Area at the United States Department of Agriculture 
(USDA) is an incredible team and powerful force for the good of U.S. 
Agriculture--we have fantastic success stories to tell. I appreciate 
the opportunity to share a few of those with you today, as well as 
inform you on the progress we have made in the implementation of the 
2018 Farm Bill.
    The REE Mission Area is comprised of the Office of the Chief 
Scientist (OCS) and four agencies: the Agricultural Research Service 
(ARS), the Economic Research Service (ERS), the National Agricultural 
Statistics Service (NASS), and the National Institute of Food and 
Agriculture (NIFA). Each of these entities provides services that are 
critical to the well-being of the American agriculture system--provider 
of the most affordable, abundant, and safe supply of food and fiber in 
the world.
ARS
    The Agricultural Research Service is USDA's primary intramural 
research agency. ARS has approximately 2,000 scientists and post-
doctoral researchers and 6,000 additional staff supporting around 690 
research projects at over 90 locations. These researchers produce an 
immense output of scientific and technical knowledge. ARS scientists 
produced over 4,500 peer-reviewed journal articles in 2018 alone. 
Without a doubt, ARS has and continues to produce a wide range of 
scientific breakthroughs that benefit U.S. agricultural producers and 
consumers. Recent innovations from ARS scientists include non-woven 
cotton gauze that could usher in next-generation wound dressings that 
quickly stanch bleeding and promote healing, a rotating cross-arm 
trellis and cane-training system for the floricane-fruiting blackberry 
to help growers overcome environmental challenges, produce more fruit, 
and reduce labor costs, and a test strip for major foodborne pathogens 
that reduces testing time from 24-72 hours to about 30 minutes.
ERS
    The Economic Research Service continues to be a trusted source of 
high-quality and objective economic research to inform and enhance 
public- and private-sector decision making. ERS research covers a range 
of topics which fit generally into six buckets: Agricultural Economy, 
Food and Nutrition, Food Safety, Global Markets and Trade, Resources 
and Environment, and Rural Economy. ERS reports provide information to 
decision makers across the Federal Government and external 
stakeholders.
    ERS reports provide significant insight on agricultural markets. 
Notably, these include in-depth analyses of commodity markets such as 
the outlook of livestock, dairy, and poultry and the outlook for sugar 
and sweeteners, both of which will be released today. Upcoming reports 
will provide information on food prices, livestock and meat domestic 
production, and an annual report on fruit and tree nuts.
NASS
    The mission of the National Agricultural Statistics Service is to 
provide timely, accurate, and useful statistics for U.S. [a]griculture. 
They conduct hundreds of surveys every year and produce reports on the 
entire agricultural sector, including production and supplies of food 
and fiber, prices paid and received by farmers, farm labor and wages, 
farm finances, chemical use, and changes in the demographics of U.S. 
agriculture.
    Earlier this year, we were proud to have the opportunity to provide 
NASS's largest and most visible report, the Census of Agriculture. 
Conducted every 5 years, the Census provides a complete count of U.S. 
farms, ranches, and the people who operate them. The Census also looks 
at ownership, operator characteristics, production practices, income, 
and expenditures. Highlights from the 2017 Census include:

  <bullet> One in four producers is a beginning farmer with 10 or fewer 
        years of experience;

  <bullet> 36 percent of all producers are female, and 56 percent of 
        all farms have at least one female decision maker;

  <bullet> 96 percent of farms and ranches are family owned; and

  <bullet> Farms with Internet access rose from 69.6 percent in 2012 to 
        75.4 percent in 2017.
NIFA
    The National Institute of Food and Agriculture is USDA's extramural 
research agency, providing funding and leadership to support research, 
education, and extension programs that address national agricultural 
priorities. NIFA primarily does this through competitive and formula 
grants.
    Competitive grants are comprised of different grant programs with 
the largest being the Agriculture and Food Research Initiative (AFRI). 
With AFRI grants, researchers across the country are able to conduct 
research and find solutions to problems that face producers. For 
instance:

  <bullet> Clemson University researchers are using new nutrient-
        management drone and camera technology to save up to $54 per 
        acre on cotton production;

  <bullet> Researchers at the University of Missouri have found that 
        zinc plays a key role in promoting fertility in male livestock. 
        In addition to improving in vitro fertilization and artificial 
        insemination in livestock, the research provides a quick and 
        accurate evaluation of livestock fertility;

  <bullet> Fellow entomologists at my Alma Mater, Auburn University, 
        have discovered a wasp that may help soybean producers and 
        other farmers in the Southeast rid their fields of the invasive 
        pest known as the kudzu bug, enabling them to produce more 
        crops and see higher yields; and

  <bullet> Researchers at Kansas State University are using the gene 
        editing tool CRISPR to improve the wheat genes that control 
        several yield component traits, such as seed size and the 
        number of seeds per plant.

    Formula grants go to land-grant universities to support them in 
conducting agricultural research and extension. While much of this 
funding is used to support research projects that address critical 
areas of need, formula funding is also used to support the basic 
research and extension infrastructure needed to disseminate knowledge 
and provide training to individuals in a variety of ways.
    One example of this is at North Carolina State University, where 
extension professionals and volunteers provided 13,000 educational 
programs to 1.9 million residents. Their efforts improved the health 
and well-being of 115,000 North Carolinians through food and nutrition 
programs, prepared more than 263,000 youth through 4-H programs, and 
provided $300 million of economic impact to the state.
    NIFA's extension work also provides help to millions of family 
caregivers, more than 80 percent of whom feel they don't have the 
information or training they need. With a NIFA formula grant, Family & 
Consumer Sciences educators from Oklahoma State University Cooperative 
Extension have developed a comprehensive health education curriculum 
that includes lessons in proper nutrition, aging and finances, and 
prevention of elder abuse and exploitation.
    NIFA also supports workforce development, including the 4-H 
organization. In 2018, NIFA-funded programs supported 104,149 students 
through recruitment, retention, curriculum development, and faculty 
development. Through 4-H, NIFA supports a new generation of community 
and agricultural leaders.
Office of the Chief Scientist
    In addition to serving as Deputy Under Secretary, I oversee the 
Office of the Chief Scientist. The Office of the Chief Scientist 
supports scientific prioritization and coordination across the entire 
Department and convenes the USDA Science Council. The council 
facilitates cross-Departmental scientific coordination and 
collaboration and ensures that research supported by and scientific 
advice provided to the Department and its stakeholders are held to the 
highest standards of intellectual rigor and scientific integrity.
    We are fully committed to supporting research that ensures U.S. 
producers will be able to adapt to changes in climate and continue to 
develop and advocate for a wide range of sustainable intensification 
practices. For example, ERS researchers recently published a study that 
examined the potential effects of climate change on risk management. 
USDA has no policy, no practice, and no intent to minimize, discredit, 
de-emphasize, or otherwise influence the rigorous climate-based science 
of any agency or partner institution. We support the work done by our 
scientists in this area of our research. Tools such as USDA's Climate 
Hubs and the Long-Term Agroecosystem Research (LTAR) Network 
communicate climate research directly to the producers these changes 
most directly impact. Additionally, the National Climate Hub 
Coordinator compiles a quarterly report that provides information on 
publications, outreach events, and technical support.
2018 Farm Bill Implementation
    REE held a stakeholder listening session on March 21, 2019, to 
begin the process of farm bill implementation with all REE leadership 
present. While each of the four REE agencies and the Office of the 
Chief Scientist were included in the farm bill, the vast majority of 
the provisions pertain to NIFA. Thus far, NIFA has:

  <bullet> Published the Request for Applications (RFA) for the Organic 
        Agriculture Research and Extension Initiative (OREI) and is in 
        the process of finalizing awards;

  <bullet> Published the updated matching requirements chart and 
        indirect cost chart on its website and sent an update to 
        stakeholders so that they are informed of the changes the 2018 
        Farm Bill made to NIFA's many grant program requirements;

  <bullet> Published the RFA for the Beginning Farmer and Rancher 
        Development Program (BFRDP) component of the Farming 
        Opportunities Training and Outreach and is in the process of 
        finalizing awards;

  <bullet> Published a Federal Register Notice regarding new Non-Land-
        Grant Colleges of the Agriculture certification process. NIFA 
        currently has certified 39 Non-Land-Grant Colleges of 
        Agriculture using the updated definition;

  <bullet> Published the RFA for the 1890s scholarship program, which 
        was championed by Representative Scott, with applications due 
        on November 2019. NIFA's goal is to ensure that these funds are 
        available for 1890 land-grant institutions to begin awarding 
        scholarships for the next academic school year; and

  <bullet> Provided guidance to 1890 land-grant institutions regarding 
        the change to carryover of funds for extension at these 
        institutions.
ERS/NIFA
    In August 2018, Secretary Perdue announced that the Department 
would be relocating the Economic Research Service (ERS) and the 
National Institute [of] Food and Agriculture (NIFA) outside of the 
National Capit[o]l Region. The relocation to the Kansas City region was 
principally completed on September 30, 2019. We believe this decision 
ultimately will improve USDA's ability to attract and consistently 
retain highly qualified staff with training and interests in 
agriculture, as well as place these important USDA resources closer to 
many of our stakeholders. A short driving distance from multiple land-
grant and research universities, Kansas City is a vibrant urban center 
in the heartland of America and a growing agricultural hub. It is also 
already home to a considerable Federal workforce, including a 
significant presence of USDA employees and the Kansas City `Ag Bank' 
Federal Reserve. Anticipated savings from this move over the long-term 
will allow more funding for research of critical needs, like rural 
prosperity and agricultural competitiveness, and for programs and 
employees to be retained in the long run, even in the face of 
tightening budgets. It is important to note that the headquarters of 
both agencies will remain in the National Capitol Region.
    As a part of this move, all employees were offered the ability to 
retain their position, were offered relocation assistance, and are 
receiving the same base pay as before in tandem with the locality pay 
for the new location. Additionally, the Department has utilized 
available resources and authorities to assist with transition for those 
who declined to relocate with their roles. For example, 149 employees 
have found new employment within the Federal Government in the National 
Capit[o]l Region and, of these, 123 are remaining within USDA.
    The work of NIFA and ERS is essential, and ERS and NIFA leadership, 
under the direction of the REE Mission Area, are working diligently to 
finalize this transition efficiently and with minimal disruption to our 
employees and mission critical work.
    Both agencies have utilized a robust set of continuity tools, 
including detailees, re-employed annuitants, and temporary extensions 
of relocation dates and both agencies are focused on hiring for vacant 
positions. Together, these agencies have over 100 active recruitments 
in process and continue to onboard new talent in Kansas City. With the 
talent pool in the Kansas City region and our aggressive hiring 
strategy, we fully anticipate that our new employees, along with the 
expertise of our relocating employees, will provide the same excellent 
level of work for which ERS and NIFA have been known.
    We are confident that we will be successful, exceeding even the 
high benchmarks previously established for both ERS and NIFA.
    In conclusion, thank you for allowing me the opportunity to 
highlight some of the fantastic research being done in the Research, 
Education, & Economics mission area, provide an update on the status of 
REE farm bill implementation and address some specific topics of 
interest. Thank you for your continued support of this vital aspect of 
the services USDA provides in our quest to ``Do Right and Feed 
Everyone.'' I look forward to answering your questions, and I thank you 
for the support that this Committee has always shown for [a]griculture 
research and innovation.

    The Chair. Thank you so much for your testimony and for 
being here again, and again for being here with us to answer 
these questions.
    I do believe in--when you say that you are committed to 
these areas and that you want to have efficient and well-run 
research for our farmers and ranchers. I do have a question for 
you about some of the statements that you have made here.
    You said despite USDA's assertion of the cost savings, the 
Agriculture and Applied Economics Association states that the 
relocation of ERS and NIFA will cost taxpayers between $83 
million and $182 million. Can you explain when calculating your 
cost-benefit analysis, how did you consider the value of lost 
research from employees who chose to resign or retire? And did 
you consider the value of the resulting brain drain and loss of 
institutional knowledge when calculating that cost-benefit 
analysis?
    I know those are softer, more difficult costs to kind of 
recognize.
    Dr. Hutchins. Yes, thank you for the question.
    The USDA, to be completely transparent and to be able to be 
objective, utilized the cost-benefit approach where we used 
really only the facts-based information that we had. The costs 
that were associated here in the D.C. area, the costs 
associated in the new area opportunities, and really developed 
that in terms of a straightforward cost-benefit analysis.
    While it is true that we have lost some excellent talent in 
both of those agencies, we have every confidence that we will 
be able to replace that and we have made exceptional activities 
to be able to continue with some of those individuals that were 
not able to do, that had elected to retire and so forth. And 
so, it is very difficult for us to put a subjective value on 
those kinds of considerations. And so, to be transparent and 
fair and data-driven, we elected not to do that.
    We do believe that we will be able to build those agencies 
to not only to where they were, but beyond where they were in 
terms of capacity and capability, and some of the considerable 
cost savings, over $300 million in nominal fees, will be 
reinvested in those agencies in order to ensure that that 
occurs.
    The Chair. And can you give us just an outline, the top 
level objectives, how you plan to do that? At this point, I 
understand that there are significant gaps in personnel in some 
of those areas. How do you plan to ramp up as quickly as 
possible to continue to meet the objectives?
    Dr. Hutchins. Thank you for the question.
    I have stated previously in the past, two primary 
objectives I have had since we have been involved in this 
project. One was to take care of the employees as best we 
could, and make the transition for those as feasible and as 
easy as possible. Both those relocating to Kansas City, as well 
as those who, for personal reasons or whatever reason, have 
elected not to do that. We have been very successful in both of 
those efforts.
    And then the other side of that, which is what you are 
addressing, is a continuity of mission. In the context of 
continuity of mission, we have done several things in the 
short-term. We have worked with employees who were interested 
to return as retired annuitants. A number of individuals have 
elected to do that. These folks are very--whether they have 
gone to Kansas City or not, they are very, very committed to 
the mission of these agencies, and they wanted to have the 
opportunity to transfer their work, to finish their work, and 
to complete their work. So, we have done that.
    The other thing that we have done is we have accelerated 
our hiring tremendously. We have had the benefit of having some 
opportunities for direct hiring authority. We have also had the 
opportunity to work with the Kansas City region to develop 
employment fairs and so forth to bring in candidates. And just 
as an example, some of the positions that we would typically 
recruit for, such as our program leaders in NIFA, we would 
normally have 50 to 60 applicants for that. We have those 
advertised now and we are having 400 to 500 applicants for 
those particular positions. It will take time to matriculate 
the government hiring process. You probably are aware of that. 
But we have no shortage of interest and no shortage of 
candidates, and we will work with all due speed in order to 
fulfill those gaps.
    The Chair. And when you say you will work with all due 
speed to do that, that is related on the hiring and the 
staffing. Even in terms of the permanent principle office 
space, my understanding is that permanent office space has yet 
to be secured and the agencies are still dramatically--some 
staff in Washington are working on extensions, and there are 
delays in terms of getting that permanent office space secured. 
Why is that?
    Dr. Hutchins. Thank you for the questions.
    Two clarifications on that. There are some individuals that 
are continuing to work that we extended their time period in 
Washington, D.C. They were working in some very specific areas 
that we wanted to make sure for continuity in mission that we 
maintained for a bit longer period of time. Not extensive, but 
3 months to 6 months in order for those particular very 
specialized units in order to continue that work. That is not 
related at all to office space available in Kansas City. The 
folks in Kansas City have landed in the USDA Building, the 
Beacon Center. It is a fantastic facility. It is up and 
running. I visited there personally on day 1 and day 2 when 
they arrived, and so, they are very able to function in that 
capability. We have a lot of opportunity to expand within that 
center during this hiring process.
    The Chair. Okay. I will ask my esteemed colleague, the 
Ranking Member, for his 5 minutes at this time.
    Mr. Dunn. Thank you very much, Madam Chair.
    Dr. Hutchins, again, thank you for being here today, and 
thank you for the updates on implementation.
    In the farm bill, we secured language expanding the 
membership in the Citrus Disease Subcommittee and secured an 
additional $125 million over the next 5 years for citrus 
research. Can you give us an update on the status of the Citrus 
Disease Research and Extension Program, briefly?
    Dr. Hutchins. Yes, sir, I would be happy to.
    The citrus greening disease obviously is a tremendous 
devastating disease and situation in Florida. As an 
entomologist, I am familiar with the psyllid situation, and for 
years, we have been working to do everything we can to mitigate 
that loss. This research and that program will help that 
tremendously.
    NIFA is ready to draft the RFA for this program. They have 
been working to finalize the subcommittee as part of the 
requirement, as part of the NAREEE (National Agricultural 
Research, Extension, Education, and Economics) Board in order 
to do that, and as soon as that is completed, which should be 
within days, we will put those two groups together in order to 
develop that plan and develop those RFAs.
    I would also point out that while that is occurring, the 
research is continuing to occur. USDA has been supporting that 
in a tremendous area that the University of Florida has. 
Obviously, a lot of folks are working in this space.
    Mr. Dunn. I assure you that we have a keen interest in that 
research, and anything that you can share with us, going 
forward, will be appreciated.
    Switching gears to the relocation, you recently visited the 
new center in Kansas City and I would like to have a little bit 
about your experience there and the morale of the relocated and 
new employees.
    Dr. Hutchins. Thank you.
    It was a tremendous visit. I have been there several times 
at Kansas City, several times now, including the original site 
visits. And when I visited and arrived on day 1 and took time 
on day 2 as people were just getting settled in with their 
badges and those kinds of things, I took the time to visit 
every single work station that was there, everybody and visit 
with them personally. And what I was so enlightened to see and 
to hear was how happy everyone there was about two things. One 
is about the fact that they are there working on their mission 
and that they are moving forward on that mission; very eager to 
do the rebuilding that was referenced earlier and to do that 
and to take it to that next level.
    The other thing that I was really interested in hearing and 
seeing that they shared with me without asking was how much 
they enjoyed the region. They were talking about commute times 
of 10 minutes versus an 1\1/2\ hours. They were showing us 
pictures of their homes that they would never have been able to 
purchase in this region. One individual had a 6 acre horse 
farm.
    Everybody has a different story and everybody has a 
different living preference, whether it is urban or rural or 
what have you, but they were, all the ones that I spoke to, 
were very pleased with the region personally, and very eager 
and excited about the professional challenge that they have, 
including the new employees. And we do have several new ones in 
Kansas City.
    Mr. Dunn. I am so very, very happy that our employees are 
happy, because happy scientists do better research.
    Recent media reports have indicated that USDA research into 
the ways that farmers and ranchers adapt to the effects of 
climate change has been hampered by this Administration. Can 
you confirm that the USDA has no policy, practice, or intent to 
minimize or discredit or de-emphasize climate-related science 
carried out by the USDA?
    Dr. Hutchins. Sir, thank you for that question.
    I can absolutely confirm for this Committee that that is 
not the case. I have been with the USDA since January, and I 
have seen no evidence or no indication at any level under any 
circumstance.
    Mr. Dunn. And you were a user of it before then. As a 
follow-up to that question, when the first media reports were 
coming out about this purported resistance of that, did you not 
send a memo to the leaders of the research agencies encouraging 
them to continue with the agency's research on this very topic?
    Dr. Hutchins. Yes, sir, I did send a memo. But more 
importantly, my entire leadership team--the agency leads for 
all of the agencies--cosigned that, and we wanted our career 
scientists to understand that we are there to support them and 
that we support the research that they are doing.
    Mr. Dunn. Excellent. I am glad to hear that.
    I have one other comment rather than a question. We carried 
a provision in the 2018 Farm Bill to eliminate a disparity in 
the way the funds were handled in extension activities between 
the 1890 land-grant universities and the 1862 land-grant 
institutions. However, we are aware that these funds are still 
being controlled by different sets of rules, specifically, the 
1862 extension programs are able to carry funds over for 5 
years, and the 1890 programs are only allowed 2 years. Now, I 
know you are in touch with the land-grant institution 
stakeholders on the issue, but I would like you, going forward, 
to keep us informed here on this Committee about why those 
disparities continue to exist.
    And with that, Madam Chair, I thank you and I will yield 
back.
    The Chair. Thank you very much.
    You mentioned something about the agency not having changes 
in terms of climate research. There was a report that said that 
.3 percent of USDA's budget was going towards assisting farmers 
in adapting to climate change. I don't know if you agree with 
that percentage or not, but what are you doing specifically in 
your mission statement to support climate research and getting 
information to farmers on the ground?
    And after you answer that question, Mr. Cox of California 
will be next.
    Dr. Hutchins. Thank you, ma'am. The .3, I can't say for 
sure where that number came from. I believe it was referencing 
specifically the climate hubs. But there is so much more going 
on within USDA, in addition to and in support of the climate 
hubs.
    For example, within the REE mission area, we have 
identified our leadership team, five significant themes that we 
are focused on across the agencies. One of those is sustainable 
ag intensification, and that includes a lot of things in it. 
But most prominent within that would be soil health, for 
example, and the ability to sequester carbon and those kinds of 
activities. We have over 3,500 projects across our four 
agencies in R&D working just within sustainable 
intensification.
    The other one is ag climate adaptation. We are committed to 
ensure that U.S. agriculture adapts to whatever climate 
scenarios present themselves, and we have over 580 projects 
across these four agencies that work in that space. We are 100 
percent in on making sure that U.S. agriculture is resilient 
and able to adapt to climate opportunities that present 
themselves.
    The Chair. Thank you.
    Mr. Cox. Thank you so much for being here, Deputy Under 
Secretary Hutchins.
    Just to follow up on the Chair and Ranking Member's point, 
is that so there is an overall acceptance that climate change 
is real and a factor that is influencing U.S. agriculture?
    Dr. Hutchins. I believe the body of work. I have been clear 
in other testimonies in the Senate that the body of work is 
pretty clear that the climate is changing over time, and so the 
focus for agriculture, as I have indicated, is a real positive 
opportunity for us to do two things. One is to be able to 
mitigate to the extent that we can. There are a number of best 
practices. As I understand the climate report, the last one 
that was published, U.S. agriculture represents about 8.9 
percent of the emissions, and we can improve on that. We can do 
better with a lot of best practices.
    Our focus in USDA is to work with and develop those 
technologies and those best practices to allow agriculture to 
mitigate.
    But, as I indicated earlier, our real focus is to make sure 
that we adapt. We will mitigate as much as we can. There are a 
lot of factors within the U.S. and outside the U.S. that affect 
it, but we definitely need to adapt to it. And so, we have 
breeding programs, we have a number of activities that are 
specifically focused to support our farmers in that regard.
    Mr. Cox. Great, thanks so much.
    And so, I come from California's 21st Congressional 
District, which is essentially the top ag district in the top 
ag state, and in a district that is as diverse as mine, as you 
can appreciate, farmers rely heavily on public research and 
advances made by this research creates revolutionary tools, 
technology to combat pests and disease, and that is why 
California's Central Valley reigns as the most agriculturally 
productive region in the country.
    And one such group that is reliant on strong support and 
expedient actions by the USDA are my citrus growers, speaking 
to Mr. Dunn there. And in the 2018 Farm Bill, the Citrus 
Disease Subcommittee was expanded and reauthorized through 
2023. The Secretary of Agriculture has not yet made 
appointments to this subcommittee. It is imperative that the 
Secretary make these soon in order to continue critical 
research to fight the HLB disease that currently threatens 
California and Florida citrus growers.
    When will the Secretary announce these crucial board 
appointments?
    Dr. Hutchins. Sir, just to follow up with that same 
question, we have that in process. It would be within days that 
that would be complete. I have already seen the draft, and then 
we will immediately move to have that completed. So, we are 
advancing that.
    I would also add that USDA, NIFA is working with the 
Foundation for Food and Agriculture as well to convene a group 
to focus in this area as well. It is a top priority for us, and 
we will have that subcommittee named and operational here 
within a few days.
    Mr. Cox. Just so--certainly by the end of the month?
    Dr. Hutchins. That would be my full expectation.
    Mr. Cox. Okay, great.
    And then more generally, President Trump, through Executive 
Order, has ordered departments to cut these vital advisory 
committees and reduce the ways in which stakeholders are able 
to engage with Federal agencies. Can you commit to maintaining 
these vital committees, and elaborate on the Agency's plan for 
increasing engagement with the stakeholders?
    Dr. Hutchins. Sir, I understand the Executive Order. I 
understand it, the Department has gone through a review of its 
various departments, and the ones including these will continue 
in force.
    Mr. Cox. Okay, great.
    Well, thanks for that commitment to have that subcommittee 
named within a few days. We will look forward to that.
    Dr. Hutchins. Yes, sir.
    Mr. Cox. With that, I will yield the balance of my time.
    The Chair. Thank you. Mrs. Hartzler, you have 5 minutes.
    Mrs. Hartzler. Thank you, Madam Chairwoman.
    Dr. Hutchins, you highlighted several benefits of 
relocation of the ERS and NIFA to Kansas City region in your 
testimony, and I just wanted to underscore your efforts here, 
and share our region's dedication to seeing that this is a 
continued success for these two agencies.
    Being in the heartland, we are very excited about this 
move, and concur with you that we have the personnel that will 
be able to fill these positions. We are excited about it, and 
being there close to the stakeholders is really important. And 
so, our farmers and ranchers support it. I represent the 
University of Missouri and we are co-hosting a job fair there 
with you in November, and I am very excited not only for the 
cost savings that will be reinvested back into these agencies--
that will be very helpful for the research--but also the 
quality of life and just the product that will be developed 
there. I commend you on your efforts. I stand ready to continue 
to support you, and would just certainly oppose any efforts to 
try to stop this forward progress that has been made. So, keep 
up the great work there.
    I did have a question on another topic, though. Farm 
country is experiencing a lot of uncertainty, and the 
reestablished Farm and Ranch Stress Assistance Network is a 
really important tool for many of our producers. Could you 
please shed some light on the status of this program, and what 
impact you expect this to have moving forward?
    Dr. Hutchins. Thank you very much, and let me just also say 
in return that the University of Missouri, Kansas State, the 
whole region has just been fantastic to work with. They have 
been open arms. They invited myself and other members to join 
the Animal Health Corridor homecoming dinner, which we did, and 
I just had a great opportunity. And everyone in that region and 
everyone outside the broader region within that area is very 
excited about this.
    With regard to the very important program of Farm and Ranch 
Stress Assistance, that program has been reauthorized until 
2023 at $10 million appropriations each of the Fiscal Years 
2019 through 2023, and the 2019 appropriations Act included $2 
million for the assistance program.
    A couple of important points here, it does allow Indian 
Tribes to be eligible for the grants, which is a very important 
aspect of this. The request for application was issued on June 
25, and I am pleased to say--and with a deadline of July 25 of 
2019, and I am really pleased to say that we expect those 
awards to be made next week, and they will be implemented 
within our extension networks within that area immediately.
    It is a critical program. We know it is a difficult time in 
the farming communities right now, and really applaud Congress 
for having the foresight to build this and appropriate these 
kinds of funds.
    Mrs. Hartzler. Great. Thank you very much.
    I yield back.
    The Chair. Thank you very much. Now Mr. Brindisi of the 
Empire State--I am a native New Yorker, so of course I always 
have to big up New York. Mr. Brindisi, 5 minutes.
    Mr. Brindisi. Thank you, Madam Chair. I appreciate that. 
Welcome, Deputy Under Secretary Hutchins.
    Like many Members on this panel, I am concerned that the 
land-grant university that serves my state, in this case, 
Cornell, has experienced significant delays receiving NIFA 
funding. Cornell has about $5 million in projects that have 
been awarded, but the agency has been holding onto the funds 
pending processing. These are pretty important projects on pest 
and disease mitigation and improving organic dairy exports. The 
release of NIFA funds this year will be, on average, an 
additional 2 months later than previous years. Why is this?
    Dr. Hutchins. Well, as has been indicated, we do have an 
opportunity--we do have a hill to climb in the short-term in 
order to ensure that we do fulfill and have everything out the 
door, as it were, with regard to NIFA. But we have committed to 
do that by March of 2020, and we have prioritized the process 
of doing that.
    We have prioritized, for example, the 1890 and the 1994 
groups that have less flexibility and leeway. As important, 
what we have done is we have great meetings and continuous 
contact with stakeholders like Cornell, as an example, to make 
sure that they understand what our situation is and that we can 
respond to any specific shortfalls or emergency issues that 
they have.
    We are committed to really fulfilling the mission this 
year. I am not going to sugar coat the challenge that we have. 
I never have. We do have a hill to climb. We have done all that 
we can, as much as we can to intervene to bring in some 
temporary resources to help folks do it.
    I have been very pleased from the land-grant institutions 
have contacted us to say, ``How can we help you? We are in this 
for the long-term. How can we help you?'' And so, we are taking 
advantage of that. We are going to do all we can to make sure 
that every university that has money that is part of this 
process receives their money as quickly as possible, and no 
later than March 2020. Some will actually receive it earlier 
than others, but we are going to make sure that that happens. 
And if there is a specific program or contact, we would 
encourage Cornell or whomever else to contact their NIFA 
representative or visit their website and find out how we can 
accelerate that situation.
    Mr. Brindisi. Okay. Going forward, we can expect that you 
are going to take actions to minimize these delays, moving 
forward?
    Dr. Hutchins. Absolutely, yes, sir.
    And let me just also add, if I can, that this is an 
opportunity for us with both of these agencies, but NIFA 
specifically to really step back and look at the process. We 
have also received lots of feedback about the administrative 
burden and this and that and the other thing. It is an 
opportunity for us to step back and say, ``Can we do this 
better in the long-term?'' As we rebuild the staff, we also 
want to rebuild the process within, of course, the 
Congressional rules to ensure that we can be more responsive, 
to ensure that we can reduce the burden of administration, and 
that we can be better servants to the land-grants, which we are 
here for.
    While we are working through the short-term challenge, we 
have an eye on the endgame, which is to be a much better, more 
service-oriented functioning organization, and with the 
opportunity with the savings that we will have, we will also 
have the opportunity, we believe, to actually do more research 
and to build more capability. We are building those kinds of 
gold standards into where we go forward.
    Mr. Brindisi. Thank you. And I just want to follow up, too, 
on the Chair's question about that recent report about the 0.3 
percent of USDA's budget regarding climate change. I know you 
said that you weren't sure where that particular number came 
from, but in that report, there was also mention that USDA has 
not actively promoted research related to climate change, and 
that the climate hubs have continued to operate with extremely 
limited staff and no dedicated resources. Do you agree with 
that report, and what do you have to say about that?
    Dr. Hutchins. Sir, I do not agree with that report, per se.
    The climate hubs themselves do have dedicated resources. 
They may not be Congressionally mandated resources, but they 
are dedicated and they have been in place ever since they were 
originated. But, I also want to emphasize the point that there 
is a lot more going on within USDA than just the climate hubs. 
They are fantastic, but we have a tremendous amount of work 
going on in that space.
    In terms of the promotion, agriculture is one of those 
unique areas where every field, every situation is unique. And 
so, what we have is a network through our extension service, 
through these hubs, and through other places where we can work 
hand in hand with farmers and growers to adapt the practices 
that are best for them. Those kinds of communications, that 
kind of teaching, that kind of mentorship, that kind of program 
is not amenable to press releases and things like that.
    Mr. Brindisi. Sure.
    Dr. Hutchins. We are focused on being successful and 
showing results, and that is where our focus is.
    Mr. Brindisi. How do you disseminate the information to 
farmers and ranchers?
    Dr. Hutchins. Many, many ways. The hubs themselves have 
aspects. Our extension service that is funded by the states as 
well as by NIFA is, of course, a key aspect of that. We have 
all kinds of partnerships with NGOs and with other groups that 
we all work together. I met just yesterday with a coalition of 
soil health groups. There are multiple ways that we do that, 
and it is a key focus and priority for us.
    Mr. Brindisi. Thank you.
    Dr. Hutchins. Thank you.
    The Chair. Thank you. Mr. LaMalfa of California, your 5 
minutes.
    Mr. LaMalfa. Thank you, Madam Chair.
    Welcome today. I am, again, very pleased with the effort 
made by USDA to: ``Go west, young man,'' as the saying goes. 
But, accessibility for people that are truly in the field is 
important. And I know from personal experience, $500 plane 
tickets, $50 cab rides from the airport, $200 a night hotel 
rooms, and a cab ride everywhere around town, it is not cheap 
for regular folks to get back here and try to have their little 
15 minutes of fame. And so, I commend the effort by USDA to 
move some of the operations.
    Do you identify other areas where more of these operations 
could be moved farther west? You know that California is indeed 
a strong hub of agricultural activity and research, and so many 
things that are happening there. We had a great visit with the 
Secretary a few weeks ago out west in California. Can you see 
more effort that could be made in locating directly more USDA 
operations in California, in the West, or outside of 
Washington, D.C.?
    Dr. Hutchins. Well, sir, thank you for the question. I have 
not done any kind of analysis in that regard. We are, of 
course, always looking, for example, within our ARS 
organization to see where we can strengthen, and we have a big 
major investment going into strengthen the Salinas research 
station in California. But I am not involved and there are no 
active plans that I am aware of at this point in time to look 
into any others.
    But if I may, I would just want to point out that while we 
are moving significant portions of both of these agencies, I 
just want to remind the Committee that the headquarters for 
both of those agencies is staying in Washington, D.C. And what 
we did was a very deliberate process of trying to identify--
actually, the agencies themselves did this. What are the most 
appropriate aspects that should stay here, and what would be 
the areas that we could move? And what I did the first week on 
the job was I contacted the director of the Centers for Disease 
Control, because I recognize that there are advantages to 
making sure that our agencies stay connected with the other 
science organizations. That has been a criticism. It has been a 
concern, and I recognize that. I visited with Dr. Redfield for 
some time and said, ``Look, CDC is a very highly respected 
science organization. It is in Atlanta. How do you do that?'' 
And so, he was very gracious in sharing a lot of practices, a 
lot of approaches, and we incorporated all of those into our 
design.
    NIFA, for example, for the folks in D.C. will be spending 
virtually all of their time focused on those connections with 
NIH and with FDA and with EPA and those groups. We have thought 
through this very, very carefully.
    In the case of ERS, \1/3\ of the agency will remain here, 
and so, that group will be working very closely with the Office 
of the Chief Economist and with other groups to make sure that 
their reports that are Congressionally mandated are done on 
time.
    I just want this Committee to know that we have thought 
through this carefully in terms of the components that stay 
here and the components that would be in a better position and 
be more operationally effective and closer to customers.
    Mr. LaMalfa. Well certainly, you need to have a foothold 
here where many decisions are made, and it is a clearinghouse 
for a lot of that. But when you get right back down to 
research, the new technologies, and whether responding to 
changes in weather and we have been for decades in agriculture 
on my own farm, et cetera.
    I also want to emphasize the forestry aspect, as obviously 
U.S. Forest Service is a department within USDA, and the 
extreme importance that the issues we have in the West are 
completely different with whatever holdings there is east of 
the Mississippi. I know you are aware of that as we burn so 
many hundreds of thousands of acres every year, unfortunately. 
We need much more action by the Forest Service to be inclined 
to do more on forest management, and to continue to research 
what are the best ways. We have a pretty good idea of what 
needs to be done out there, but that has to also reach through 
the bureaucracy to get the work on the ground, et cetera. Can 
you see that we have an opportunity to do more within forestry, 
because again, I have had entire communities burn in my 
district, and the threat of that is still ongoing all over the 
West. What more can we be doing in the Forest Service with this 
research or with the possibly relocating more of our resources 
in the West instead of here on the forestry side?
    Dr. Hutchins. From a research standpoint, some of the steps 
that I have taken is I invited Dr. Friend, who is the R&D 
leader for the Forest Service, because they do have their own 
R&D organization, to be part of our leadership staff in REE, so 
he is an adjunct member, and we work to coordinate in that 
regard. He has been a very great contributor in that way.
    I can't speak to personally anything in terms of the fire 
suppression or the fire aspect. What I can say is that forestry 
is a critical component of the overall climate aspect of 
things. One of the factoids I learned when I came here, which 
is very exciting, is that every year about a million acres of 
farmland is converted into forestry land. And that is huge in 
terms of carbon sequestration. As we are able to sustainably 
intensify ag production, it opens up the opportunity for us to 
increase forestry and to increase that opportunity to further 
mitigate climate impact.
    Mr. LaMalfa. Well certainly it is a great store of carbon, 
if you want to play that carbon game there. But, I think that 
when we are looking at the inventory of trees we have per acre 
in our already overgrown forests, it doesn't just mean more 
trees are the answer. It means they have to be managed in such 
a way that there is the right ratio per acre, et cetera.
    Madam Chair, I am over my time, so I will gladly yield 
back. Thank you.
    The Chair. Thank you. Ms. Schrier of Washington State, you 
are next.
    Ms. Schrier. First of all, thank you for coming today and 
joining us, Dr. Hutchins. I have to tell you, it is very 
refreshing to hear from a scientist, so thank you. I appreciate 
it.
    I also want to say how much I appreciate that we are having 
this hearing today, because in the face of climate change and 
competition in trade and increasing population growth, it is 
more important than ever that we have a strong, functioning, 
federally-funded ag research arm in the United States. And I 
really appreciate also your comments about adaptation and 
carbon sequestration.
    I also wanted to share that I am really proud to partner 
with Representative Bustos and other Members of this Committee 
to introduce H.R. 4714, America Grows Act of 2019 today. This 
bill will dedicate a consistent source of funding to ensure our 
world-class institutions can continue their work in leading 
edge agricultural research uninterrupted.
    I also wanted to talk about staffing issues at ARS, and 
this time, not just in Kansas. I ultimately don't agree with 
the relocation of NIFA and ERS, but I was pleased to read in 
your testimony that you have an aggressive hiring strategy, it 
sounds like, together with universities in place to address 
vacancies in Kansas City.
    But, staffing shortages are a pervasive issue affecting 
local ARS operations throughout the country, and there are 
reports that as of the end of the most recent governmental 
shutdown, there were 270 open ARS positions in the Pacific West 
region, which includes my State of Washington, and nationwide, 
there are reports of 700 vacant positions, which include both 
scientific and support staff. And so, there are a multitude of 
open and already Congressionally-funded positions nationwide 
that are caught up in this HR backlog. In our district, this 
includes a tree fruit geneticist position that has been open 
since this past February, as well as a chemical ecologist 
position that served both the tree fruit and potato farms, and 
has been open since December of 2017 at the Temperate Tree 
Fruit and Vegetable Research Unit laboratory in Wapato, 
Washington.
    I was wondering if you could update me, how many funded 
scientist positions at ARS remain vacant both nationally and 
within the Pacific West region?
    Dr. Hutchins. That is a great question. First of all--and 
thank you for that question. I don't have those specific 
numbers in front of me. I would be more than happy to get back 
with you on that, but I can address the question more broadly, 
if it is okay.
    First of all, we recognize that we have had and for several 
years actually have had a number of vacancies within ARS, and 
we are working diligently now to work on that. Specifically, 
trying to rework our HR model so that we have the HR talent and 
capability to do that, and we are bringing on contractors and 
dispersing, if you will, some of that HR talent outside of 
Washington where we have a hard time retaining HR 
professionals.
    Having said that, I did meet personally with the President 
of Washington State University, as well the Dean, on these 
topics, and assured them that we were prioritizing and focused 
in that area, the Wenatchee system and so forth, the ARS 
partnership we have with Washington is perhaps the strongest we 
have in the country, and so, we are very committed to that.
    One of the positions they asked about specifically that I 
can update is a plant pathology position. We have interviewed--
we had 40 applicants. We have four finalists. We are 
interviewing next week, and we expect to bring that person on 
hopefully by--whoever the winning candidate is by the end of 
the year.
    The government hiring process is a fairly lengthy process, 
and so we are working and navigating through that as best we 
can. But, we are committed to filling those positions, and in 
fact, as I have been working with my leadership team on this, 
we have identified a number of what I refer to as top ten 
priorities, operational priorities, not so much strategic. And 
the one for ARS really is to develop and execute that hiring 
strategy so we fill these positions. So, thank you for asking 
that question.
    Ms. Schrier. I very much appreciate that, and am happy to 
know that you are working closely with WSU. Do you have any 
sense of how many funded scientist positions have been cleared? 
We know about that one in 2019 to be filled.
    Dr. Hutchins. To my understanding--and again, I would want 
to get back to you because I want to make sure I don't mislead 
you or give you incorrect information. There are a number of 
positions that have been approved to fill, and we are working 
through that process. Again, these positions, these highly 
technical positions, we work through a process of not just the 
candidates, but through seminars and interviews and things like 
that. It is very similar to hiring a faculty member at 
Washington State. It is not a quick process, but we are 
committed to doing it and doing it as quickly as we can.
    Ms. Schrier. Thank you. I appreciate that.
    And just with the rest of my time, I meet regularly with 
farmers and with Washington State University researchers, and 
they are deeply missing these partnerships. I look at it as my 
job in a non-farm bill year to be the best supporter of our 
farmers that I can possibly be, and so, going to bat for them 
and getting the researchers that they need to help our farmers 
succeed and adapt to climate change, grow sustainable, increase 
their yields, and sequester carbon would be my dream. Thank you 
for working to fill these positions.
    Dr. Hutchins. We are in that together.
    Ms. Schrier. Thank you.
    The Chair. Thank you. At this time, my good friend, Mr. 
Davis of Illinois, you have 5 minutes.
    Mr. Davis. Thank you, Madam Chair. Thank you, and also to 
the Ranking Member Mr. Dunn for your leadership on this 
Committee. I appreciate it and my colleague, Ms. Schrier's 
comments on carbon sequestration. I would welcome you to come 
to my district where we have a carbon sequestration project 
that is funded in conjunction with the Department of Energy, 
and also Richland Community College and a public-private 
partnership with Archer Daniels Midland, and also at the 
University of Illinois, which is very crucial to the ag 
research title in this that we are talking about in this 
hearing. We have a Carbon Sequestration Center of Excellence 
where we actually--I got a chance to hold the Mt. Simon 
sandstone where carbon is sequestered. It is just a great 
educational experience. I invite you out anytime, and I will 
have my staff reach out to yours. But thank you.
    Ms. Schrier. Thank you. I appreciate it.
    Mr. Davis. Dr. Hutchins, thank you for coming here today, 
and I had a quick question on cooperative extension. I believe 
in my rural district that includes a land-grant university and 
three other public universities, four private universities that 
our cooperative extension service is one our nation's greatest 
resources. It is unfortunate, though, that many states across 
the country extension has seen significant budget cuts that 
have really hampered its ability to assist farmers and 
ranchers.
    In recent years, Congress has given extension some modest 
increases, but in your opinion, should we be doing more?
    Dr. Hutchins. Thank you for the question. Extension is 
really a hallmark, in many ways, of the success that U.S. 
agriculture has had. The tripartite mission of the land-grant 
universities of research, teaching, and extension are all three 
critical.
    In a general sense, I would love to see us expand on the 
extension model. I have had many great friends at the 
University of Illinois as extension specialists, and I know 
that that particular system has had some declines in terms of 
specialists because of funding and the rest of it, but yet 
still does a great job of serving its customers. I would love 
to see us build up. And what we should be doing at the same 
time, just as any situation, is we should be exploring as 
things have changed, as we become more digitally oriented, and 
these kinds of things, can we approach extension in a different 
way? Can we ensure that we are delivering that information?
    The land-grant colleges, through their education mission, 
are doing a great job of developing some really tech savvy 
individuals, and so precision agriculture, as an example, or 
digital farming, is going to be tremendous. It is already 
there, but it is going to expand exponentially. To have people 
that have the ability and are not afraid of those kinds of 
technologies, if you want to think of it that way, and really 
embrace them and experiment with them and have extension there 
to work with them to make sure that they know the newest and 
the latest, and build a science into their practice is 
tremendous.
    Mr. Davis. Is there anything that you believe your research 
agencies at USDA can do to more effectively partner with them 
to save resources and still get a better product?
    Dr. Hutchins. Well, there are a number of things that we 
could do, and we will explore that more completely. But 
specifically, what we would do is, first, to make sure that we 
focus on a couple and several key themes that we work with 
across agriculture. I have already mentioned a couple in terms 
of sustainable intensification and an ag climate adaptation. 
But the opportunity to ensure that the four agencies of the REE 
mission area are working together and developing a common set 
of practices, and then working specifically to deliver those to 
the farmer, and working hand in hand.
    As I alluded to earlier, one of the great things about 
agriculture is every farm is a unique scenario. And so, every 
farmer has the opportunity to do some experimentation, and to 
understand how these technologies best fit with them, without--
pardon the pun--betting the farm on any particular new 
technology or any particular new area. I think there is 
tremendous opportunity there for us to improve the delivery of 
tools, and we will certainly explore that.
    Mr. Davis. Well thank you.
    Real quick on another subject. In regard to the Specialty 
Crop Research Initiative and the Citrus Disease Research and 
Extension Program, it is one of the few programs that does not 
give the Secretary the authority to waive the match 
requirement. I know that we in a bipartisan way addressed some 
of these issues in the past Congress to allow that to happen. 
We secured that language in the recent CR that gives you that 
waiver authority. I am hopeful that this language will continue 
until we can correct it in the next farm bill. But if this 
language continues through the next grant cycle for the SCRI 
and the citrus program, how do you anticipate USDA will 
implement that waiver and implementation?
    Dr. Hutchins. Thank you for the question.
    Certainly we heard from a number of stakeholders about the 
matching scenario, as I know you have, Congress has. And so, we 
worked as best we could with Congress and everyone to make sure 
of two things. There were some grants that were caught up in 
kind of the shutdown period, as it were, that we were able to 
have released, and then fortunately, thank you very much for 
having the, if you would, the legislative fix put into the 
recent continuing resolution.
    It is our intent in USDA to continue and grant those 
waivers and those exceptions, so that with that exception, 
important specialty crop research can continue. Their scenario 
is one where they don't always have a great pool of matching 
fund opportunities, check-off funds, and the like, so it is 
very important that that research occur.
    Mr. Davis. Well thank you, and I see my time is up.
    Madam Chair, thank you. You are doing a great job, 
especially compared to the last Chairman of this Subcommittee.
    The Chair. That is not hard to do. Thank you for that.
    Ms. Pingree of Maine.
    Ms. Pingree. Thank you very much, Madam Chair, and thank 
you so much for being with us here today. I appreciate your 
testimony, and I appreciate your communicating with the 
Committee.
    I have been in strong opposition of the relocation of NIFA 
ERS, and I have had the opportunity to be in several 
discussions about that, also serving on the Agriculture 
Appropriations Subcommittee and also talking it over with 
Secretary Perdue. Many of my concerns about this have been 
voiced. And while I totally appreciate Mrs. Hartzler and why 
those Members who are having it come to their district should 
be very excited, I only look at this right now as bringing a 
lot of chaos to a very important Department.
    I don't need to go through everything that has already been 
said, but the staff vacancies are extremely high and there is 
just no way of sugarcoating this. I am glad you have new 
applicants, but it is clear that whether it is putting out 
grants or the reports, they are being delayed.
    I just wanted to mention, when we talk about these 38 
reports that are currently known for being delayed, these are 
things like consolidation in the dairy industry, food security 
among veterans, international agriculture market access. Some 
will be delayed and even discontinued, such as price spread, 
which calculates the percentage of food dollars that goes to 
farmers.
    I am just deeply concerned about the delayed reports, about 
ones that could be discontinued, about just general chaos. We 
had multiple former leaders of NIFA ERS that came before the 
Appropriations Committee to talk about how devastating this was 
going to be. And while, as I said, much of that has already 
been discussed today, I just want to continue to express my 
displeasure at this, and my deep concern that this has added 
voices to this question: is the Department of Agriculture still 
behind serious research, and that is some of what leads us to 
these climate change questions.
    I may submit some questions for the record, just to make 
sure that I can verify some of the numbers about the vacancies 
and the other things that you have been mentioning to us, 
because I continue to hear that there is still a lot of 
uncertainty.
    I do appreciate in your testimony you stated that the USDA 
has no policy, no practice, no intent to minimize, discredit, 
de-emphasize, or otherwise influence the rigorous climate-based 
science of any agency, partner, or institution. I am just 
really pleased you have come in this room and say climate 
change, because often that is just not even said in the midst 
of the challenges that we are going through. I appreciate you 
saying that you are not minimizing the science and you are 
prioritizing it, but I do have to question some of these 
numbers around the climate hubs.
    I have spent a lot of time both visiting climate hubs and 
looking into the numbers, and I just want to quote a few for 
the Committee's benefit. In 2016, $1.2 billion was devoted to 
climate hubs within the Department. This is aggregated from 
several different departments. There is no line item fund. And 
in 2019, the estimate is $512 million. That is cut in half. The 
bulk of that funding comes from the Department of Forestry, and 
most of it goes to forest resilience. And I am a forested 
state. I care deeply about that, but if you take out the 
forestry money, in 2016, $11 million went to the climate hubs 
and in 2019, it is $9.8 million. Whether it is .3 or point 
almost nothing, infinitesimal, that is not a lot of money 
devoted to climate change, climate resilience, helping our 
farmers prepare for this, things that are already happening to 
them, extreme weather, better ways to sequester carbon in the 
soil.
    I meet with farmers and scientists all the time who are 
hungry for information, support, technical assistance, and 
there is no way to sugarcoat it. The Department is falling down 
on this, and the research isn't getting done. It is not getting 
out to the farmers. And while, you may say we are not 
neglecting it, I do not think it could possibly be seen as a 
priority with these minor funding figures, and frankly, a very 
difficult journey to even find what reports have been produced, 
where they are on a website, how they are available.
    I am going to give you my minute to answer me, but I also 
would like to see in writing what climate reports have been put 
out, how are they being made accessible, and how are you 
reaching out to farmers to get this technical assistance they 
need?
    Dr. Hutchins. Thank you for the questions.
    First of all, I would just reiterate that the Department is 
doing a lot more with respect to climate than simply the 
climate hubs. The climate hubs was a great jumpstart and it is 
a great system, and I have nothing but positive things to say 
about it. But I don't want to diminish the fact that this 
mission area in particular and other mission areas are doing a 
tremendous amount of work in support of and in partnership and 
in addition to those climate hubs. The resources that are being 
dedicated to this are much higher than that number that you 
stated. We would be happy to share that in greater detail.
    [The information referred to is located on p. 35.]
    Dr. Hutchins. If you want to see the kinds of output that 
are coming from this, if you just, for example, go to Google 
Scholar and put in NIFA and climate, you will get over 4,000 
reports and 4,000 hits of things that have happened just since 
2016. So, there is a lot of work out there.
    Now, that kind of information, as I indicated earlier, is 
best transmitted person to person. I know that you would 
appreciate that. Person to person, extension to farm, and so 
forth. But we are--there is no attempt or no effort whatsoever 
to diminish that, and we are aggressively pursuing the 
research, but also the use of the research for practical 
improvement.
    Ms. Pingree. I apologize because I am completely out of 
time, but I will follow up with you and will be happy to see 
some sort of written document that shows what many of these 
reports are. I completely agree with you. Being able to deliver 
that information farmer to farmer is important, but I also hear 
about huge staff vacancies in the cooperative extension service 
and NRCS, and many of the vehicles where this would be 
delivered, it also belongs on the website in a comprehensive 
way. Farmers are searching the web just like everybody else, 
and they shouldn't have to go to Google. We have the USDA. This 
should be readily available information for them.
    I really apologize. I am a minute over, but I will 
personally contact you and give you much more time to follow up 
with me directly. Thank you for being here today, and thank 
you, Madam Chair, for indulging me in my extra minute.
    The Chair. Thank you. Mr. Comer?
    Mr. Comer. Yes. Dr. Hutchins, I am going to begin my 
questioning talking about hemp. Hemp is something that I have 
worked very hard on over the past 5 years, and something that 
has become a major crop in Kentucky now.
    In August, EPA announced they are working on approving ten 
pesticide applications for industrial hemp, in hopes of getting 
them through the approval process before the next growing 
season. My question is, has USDA been involved with the EPA in 
conversations during this process?
    Dr. Hutchins. Thank you, sir, for the question. Actually, 
NIFA has funded the IR-4 program, and it includes hemp. And so, 
they have conducted or they are in the process of conducting 
studies to incorporate hemp within its priorities for IR-4, 
which is considered a specialty minor crop. At this point it is 
an unique crop. There are five projects to deal with residues, 
and five deal with efficacy associated with pesticide use, and 
appropriate pesticide use within hemp.
    Mr. Comer. Well hopefully we can get those approved before 
the next growing season. I know it is a new crop. We are 
learning a lot about it, but there are still a lot of questions 
and a lot of challenges for our farmers growing it. I wanted to 
throw that in there.
    Next question, the 2018 Farm Bill under the Critical 
Agricultural Materials Act, hemp became an eligible study crop 
for certain grants and required USDA to report on the economic 
viability of hemp production. Can you provide a status of this?
    Dr. Hutchins. Yes, sir, I can. The industrial hemp research 
study conducted by the Economic Research Service has developed 
a cooperative research agreement with the University of 
Kentucky, actually, for the completion of the study, and it is 
in the early draft at this point, going through review and peer 
review. We will have information on that.
    The other thing I would report to you is that NIFA has 
solicited applications for national research needs and 
extension assessment, and has granted that with Colorado State 
and are developing a research conference.
    The other thing I would add to that is USDA ourselves, our 
mission area developed a symposium within USDA to begin to 
teach our own organization about hemp and about the 
opportunity, so we brought in experts on pest control, on 
agronomics, on genetics, on all those kinds of things, so that 
we can start to ramp up our own internal knowledge in this crop 
so we can best support our producing community.
    Mr. Comer. Great. I represent Murray State University, 
which is a non-land-grant university in my district. It has a 
great agriculture program. I will put that ag program up 
against any land-grant university in America. They have over 
1,100 agriculture students at Murray State, and they are 
leading the way in reinventing agriculture hemp, and really a 
driving force in economic development in western Kentucky with 
so many hemp companies that have domiciled in that area because 
of the research that Murray State is doing with hemp.
    USDA through the NIFA has many different funding 
appropriations. One such appropriation is the non-land-grant 
college of agriculture capacity building grants for $5 million 
annually. Murray State has received seven of these grants over 
the past few years. An important fact is that this funding is 
competitive among 58 qualifying institutions. Comparatively, 
the land-grant university budgets are massive compared to this, 
and the 1890 colleges receive $19 million in education grants, 
and $58 million in research grants divided among 19 
institutions. Yet each year since I have been here, I have 
supported this initiative, but the House Agriculture Committee 
and/or Senate Agriculture, Nutrition, and Forestry Committee 
must add back in this comparatively small amount of funding for 
these non-land-grant colleges since it is left out of the OMB, 
USDA President's budget. What can we do to get it in the budget 
request, and how can we get more support for this very 
important agriculture program at the non-land-grant 
universities?
    Dr. Hutchins. Well sir, I am not sure I know how to talk 
about the advocacy, but what I would say, I will say it more 
generally, is while the land-grant system is a tremendous 
system, and it has served us extremely well and will continue 
to do so, what we are learning today is a lot of the 
discoveries, a lot of the things in agriculture in the future 
are coming from places that we would not have predicted 
previously.
    Mr. Comer. Right.
    Dr. Hutchins. And the science of agriculture is much 
broader than perhaps it was 20 or 30 years ago. The general 
notion that we should have more of an abundance mentality on 
where some of the discoveries and where some of the research 
and so forth can do, we can make a compelling case in that 
regard. Or certainly universities like Murray State can do 
that.
    Mr. Comer. Well, I will conclude by saying that, again, 
Murray State is just on the cutting edge of hemp research. More 
and more private companies are locating in that area to do 
partnerships with Murray State. And I just think that if we 
look at our budget that we appropriate for the land-grant 
universities, it would be okay to reevaluate some of the work 
and have a little bit more accountability from some of the 
land-grant universities, and see if they are actually providing 
a good return on the investment. Because I know that Murray 
State and some other non-land-grant universities are really 
making a difference in agriculture today. And the discrepancy 
in funding that they get compared to the land-grants is really 
mind boggling.
    But thank you for being here today. I look forward to 
working with you in the future.
    I yield back, Madam Chair.
    The Chair. Thank you. Mr. Carbajal?
    Mr. Carbajal. Thank you, Madam Chair, and Under Secretary 
Hutchins, thank you for coming here today.
    I must say, I am extremely pleased to hear you being true 
to your science background and acknowledge climate change and 
the challenges that agriculture is enduring as a result of 
weather changing.
    California Polytechnic State University San Luis Obispo, 
also known as Cal Poly SLO, located in my district, is home to 
one of the nation's leading agricultural programs. I recently 
had the pleasure of visiting it, visiting the Cal Poly College 
of Agriculture, Food and Environmental Science, where nearly 
6,000 acres of agriculture production, processing, and research 
land and facilities are available to students. During my visit, 
I spoke with their staff and faculty, and toured a number of 
centers of excellence. These centers are able to continue their 
impressive work in part due to the critical partnership with 
NIFA and ERS. What stakeholders, if any, were consulted for the 
move that NIFA made?
    Dr. Hutchins. Thank you, sir, for the question.
    Secretary Perdue announced the move of NIFA in August of 
2018, and I joined the Department in January of 2019, so I 
honestly do not know of that consultation process that 
occurred. I do know it was a deliberate process and it was one 
that they felt like fulfilled a strong value proposition 
overall. But I can't speak personally to the exact consultation 
process.
    Mr. Carbajal. I would appreciate it if you could get back 
to me in writing to share with me what that process entailed, 
and if any California stakeholders were included, that would be 
helpful to understand.
    Dr. Hutchins. Certainly.
    [The information referred to is located on p. 35.]
    Mr. Carbajal. On another issue, following the legalization 
of commercial scale cannabis cultivation in California, there 
has been significant development of medium- and large-scale 
cannabis cultivation operations within my district in Santa 
Barbara County. Many of these operations have replaced 
traditional agriculture production, both within greenhouses and 
open field settings. In many cases, this cannabis cultivation 
is immediately adjacent to continued traditional agriculture 
production, and a number of concerns have been raised about 
impacts such as the potential taint of adjacent crops, such as 
wine grapes, as well as issues related to direct and indirect 
pesticide exposure. It is clear that more research is needed to 
allow both the cannabis growers and their neighbors in 
traditional agriculture production to adjust to this evolving 
industry and make sound science-based decisions.
    Given the disconnect between Federal and state laws 
regarding cannabis, are there ways that USDA can help and 
support research in this critical area?
    Dr. Hutchins. Thank you for the question.
    You have raised several fair technical hypotheses that 
could be tested in terms of is there an adverse effect one way 
or the other from the proximity of a new crop like this to 
that, and those can be tested. We can certainly explore the 
possibility of that and try to understand that and those 
concerns more directly, and so we can follow up on that.
    Mr. Carbajal. I would appreciate it if we could follow up 
on this issue together.
    Dr. Hutchins. Okay.
    [The information referred to is located on p. 35.]
    Mr. Carbajal. Thank you so much.
    Dr. Hutchins. Thank you.
    Mr. Carbajal. Madam Chair, I yield back.
    The Chair. Thank you. Mr. Baird, you have the next 5 
minutes.
    Mr. Baird. Thank you, Madam Chair. I would just say to 
Under Secretary Hutchins, thank you very much for being here.
    Purdue University is my alma mater, and it also is within 
my district back home. And so, we appreciate the agricultural 
community very much. A major share of my district is 
agricultural oriented, and certainly Purdue and the research 
that is conducted there and the research that is done by the 
Agricultural Research Service is extremely important to helping 
our producers turn out the kind of crops that we do.
    I might just mention to you we are heavy into the harvest 
season. We are having yields better than anticipated. We had a 
wet spring and so, we have worked through that.
    I guess my question is to give you an opportunity to talk 
about the relationship between the Agricultural Research 
Service and all of the other entities that are the National 
Agricultural Statistics Service and all of those, NIFA, and 
that relationship with universities, land-grant universities 
like Purdue University. I will just give you an opportunity to 
comment on that, and in that conversation, if you would relate 
your impression of the significance of the cooperative 
extension service. We have that all across the United States, 
and they do a great job in the education arena. If you would 
care to do that, I would appreciate it.
    Dr. Hutchins. Thank you, sir. I am happy to do that.
    First of all, I am very familiar with Purdue University. My 
youngest daughter is a Boilermaker, so I know that institute.
    Mr. Baird. Now we are making progress.
    Dr. Hutchins. Yes, it is a great institution, and the folks 
who are leading it, Dean Plaut and President Daniels and so 
forth are fantastic leaders. I really enjoy working with them.
    What we have in the United States is a very special 
situation. We have a situation where the Federal Government, 
through the USDA, and the states, through the land-grants and 
the non-land-grants, to the earlier point, all work together 
with a common focus on producers and consumers. And it is an 
extraordinary system, and it is exemplified within this mission 
area where the Agricultural Research Service has scientists and 
laboratories embedded within a number of universities where the 
entire NIFA organization is really focused on the success of 
land-grants and getting the best from them in terms of research 
and extension and so forth. And then certainly, the states work 
very closely with the National Agricultural Statistics Service, 
and the Economic Research Service is really--rounds out just a 
fantastic mission area and partnership with that. I rarely see 
dissent or disagreements or conflict across that ecosystem of 
agriculture research and development, and it is just something 
that we should all be very proud of in the United States, 
regardless of party or side, in terms of how well it works and 
how well it has been supported. I can't say enough about how 
important that infrastructure is. I know I have heard Secretary 
Perdue say several times that if other industries had been 
forethoughtful enough to establish systems like the land-grant 
institutions and extension and that kind of built in 
progressive approach with progress always being on the front 
end, that we would be in a different place in a lot of these 
industries that are losing jobs overseas and so forth.
    I can't say enough good things about it, and again, it is a 
tripartite mission. You had mentioned extension. It is a 
critical one, and without that, the teaching and the research 
really don't have an outlet. And so, that is why that 
particular area is critical. I do think, as I said, as things 
change in terms of digital ag and connectivity and all these 
kinds of things, and the way farming is going to be not just 
now, but the way it is going to be in the next 20 years, the 
extension model--the principles are forever, but the model in 
terms of how we communicate, how we deliver, will perhaps be 
changing or adapting.
    Mr. Baird. I yield back.
    The Chair. Thank you. Mr. Panetta, you have the last 5 
minutes of questioning.
    Mr. Panetta. Outstanding. Thank you.
    The Chair. Make it good.
    Mr. Panetta. I am sure everybody will appreciate that. 
Thank you, Madam Chair, thank you, Ranking Member Dunn, and 
also, thank you, Deputy Under Secretary Hutchins. I appreciate 
you being here and I appreciate the preparation that you have 
taken to be here, as well as all of the work that you have been 
doing. And yes, the work that you will continue to do. Thank 
you very much. I wanted to thank you personally for the meeting 
that I had with the Economic Research Service staff to discuss 
specialty crop mechanization review. They came to my office 
after we called them, and I appreciate that, just to let you 
know. But we had a talk about the specialty crop mechanization 
review mandated by Section 7610 of the 2018 Farm Bill that I 
was a part of, and trying to push them along to get the report. 
They were very motivated, I found, after that meeting to do the 
report. That gives me confidence and I am sure gives you 
confidence in your staff, as it should. It doesn't take me to 
tell you that, I am sure.
    But, I just wanted to make sure that as we move forward in 
that type of report, especially dealing with something that is 
so important to my specialty crops out there on the Central 
Coast of California, otherwise known as the Salad Bowl of the 
world that everybody in this room has heard me say a number of 
times. Are you working with members of the specialty crop 
industry to ensure that the efforts on this review match up 
with the ongoing work to mechanize and automate as we go 
forward? Obviously with our specialty crops, it takes--we can't 
just get at this point. We don't have the machinery to send it 
through, and we rely on people to come to this country, because 
no domestic workers will do that to harvest our crops. 
Unfortunately with the rhetoric around immigration and the lack 
of immigration reform at this point, we don't have that, so we 
are turning to mechanization, not to replace labor, but to 
replace the lack of labor. Let's make that clear. Obviously, we 
want USDA to play a big part in that. And so, I want to make 
sure that you coordinate with private industry as much as you 
can so that everything matches up when we go forward to have 
this kind of report.
    Dr. Hutchins. Yes, sir. I certainly support that. Having 
spent my first career within the private-sector, I fully 
recognize the importance of having the public- and the private-
sector work together in this to solve the biggest challenges 
that we have in agriculture, and certainly, labor availability 
is one of those challenges.
    Mr. Panetta. That is correct. And now, are you working with 
not just labor availability, but in regards to the 
mechanization report, you were going to work with them on what 
type of mechanization and investments are necessary?
    Dr. Hutchins. Yes. With the report and the information from 
that, we certainly will utilize that information as a way to 
kind of steer our direction and do the best that we can with 
the resources that we have.
    Mr. Panetta. Outstanding. Now, obviously I wanted to show 
our appreciation in regards to the announcement yesterday by 
NIFA in regards to the 32 grants totaling $14.3 million--excuse 
me, 30 grants totaling $24.1 million through the Organic 
Agriculture Research and Extension Initiative, OREI, which I am 
sure you have heard about today, as well and the Organic 
Transitions Program. A couple of organizations in my district 
are going to benefit from them: the Organic Farming Research 
Foundation, as well as our Agriculture and Land-Based Training 
Association, otherwise known as ALBA. They obviously rely on 
these grants, and they have taken a few steps because of that 
reliance, and some investments that they have already made 
because of those grants. And so, they are awaiting those 
grants.
    Now obviously, there is a delay that you know about when it 
comes to those grants that was mentioned, and I was wondering 
if you can elaborate a little bit more for the reason for the 
delay on those grants?
    Dr. Hutchins. Sorry, I don't have the specifics on those 
individual grants, but I can certainly come back to you on 
that.
    [The information referred to is located on p. 36.]
    Mr. Panetta. I would appreciate that.
    Dr. Hutchins. I am more than happy to do that. What I can 
do is follow up, of course, with NIFA. I know that they have 
prioritized that area as a high area of interest and focus, and 
we certainly are aware of your interests and your stakeholders' 
interests. I will commit to do that.
    Mr. Panetta. Thank you very much. I appreciate that. Like I 
said, I found the response from you and from the employees 
underneath you very good and very responsive, and I hope that 
we can continue this type of relationship, especially as you 
move forward with the transition to Kansas City, unfortunately, 
as I may add, but also knowing that as long as there are people 
there that pick up the phone and continue to do the work that 
we need them to do, especially when it comes to agriculture 
research. There will be appreciation shown by us in Congress, 
but also hold you accountable as well.
    Dr. Hutchins. Yes, sir, I would expect that.
    Mr. Panetta. Thank you, sir. I appreciate it.
    I yield back.
    The Chair. Thank you. Before we adjourn, I would invite the 
Ranking Member, if he would like to, to make any closing 
remarks.
    Mr. Dunn. Thank you very much, Madam Chair. I just want to 
say thank you to you for calling this hearing. It has been very 
enjoyable to have a chance to hear from our experts, and as 
always, I enjoy serving with you on this Committee. Thank you 
so much.
    The Chair. Thank you, Mr. Dunn.
    Thank you so much, Dr. Hutchins, for being here with us and 
for your testimony and your willingness to answer questions. I 
do believe, and as you have seen here, that we all want the 
best for the Department of Agriculture. I am grateful for your 
willingness to be very transparent with this Committee and talk 
about the issues that you have had and your attempts and what 
you are doing to create a road forward for the agency and 
particularly for the departments that you have oversight over.
    I am concerned, and I think the numbers speak for 
themselves. ERS has a 65 percent vacancy rate. NIFA has a 76 
percent vacancy rate. There are 478 total positions vacant, and 
grants will be several months delayed. In that, however, you 
have heard from Members on both sides, and I believe you as 
well on this--as the Members of this Committee are trying to do 
what is right for farmers, fishermen, ranchers, and the people 
who rely on the goods and the services that they bring into the 
market. We didn't agree with the move, but the Department of 
Agriculture, Secretary Perdue has moved forward.
    And so, what this Committee is asking for is not only just 
a plan from you on how you intend to meet the needs of those 
agencies, but also to hear directly from you about how we can 
assist and how we can help and make that happen.
    I am not sure--and I haven't been able to ascertain from 
your answers whether or not this was really a well thought-out 
plan, or this was something that came about and you all had to 
really put this together and make it work. But be that as it 
may, it is what it is. And at this point, I, as the Chair of 
this Subcommittee, really offer ourselves to give you as much 
support as you need to make sure that the research and the work 
that is done by that agency and by those departments really 
moves forward expeditiously.
    With that invitation to you and your staff to meet with us 
as Members and the more than able staff of this Subcommittee, 
this hearing--I just want all of the Members to know that under 
the Rules of the Committee, the record of today's hearing will 
remain open for 10 calendar days to receive additional material 
and supplementary written responses from the witness to any 
questions posed by the Members. There were a lot of questions 
that people had, and some information that you as well said 
that you would get back to us, and we look forward to that.
    At this time, this hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research stands adjourned. 
Thank you.
    [Whereupon, at 11:31 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Supplementary Material Submitted by Scott Hutchins, Ph.D., Deputy Under 
 Secretary for Research, Education, and Economics, U.S. Department of 
                              Agriculture
Insert 1
    Ms. Pingree.
          I am going to give you my minute to answer me, but I also 
        would like to see in writing what climate reports have been put 
        out, how are they being made accessible, and how are you 
        reaching out to farmers to get this technical assistance they 
        need?
          Dr. Hutchins. Thank you for the questions.
          First of all, I would just reiterate that the Department is 
        doing a lot more with respect to climate than simply the 
        climate hubs. The climate hubs was a great jumpstart and it is 
        a great system, and I have nothing but positive things to say 
        about it. But I don't want to diminish the fact that this 
        mission area in particular and other mission areas are doing a 
        tremendous amount of work in support of and in partnership and 
        in addition to those climate hubs. The resources that are being 
        dedicated to this are much higher than that number that you 
        stated. We would be happy to share that in greater detail.

    REE conducts or funds hundreds of studies on climate change every 
year. That research is disseminated through our Regional Climate Hubs 
and other communications channels, which allows for the most relevant 
information for producers in a particular area to be more easily 
located. Information relating to research on the affects you describe 
can be found here: https://www.climatehubs.usda.gov/.
    Ensuring the latest research gets into the hands of farmers is a 
priority. Formal press releases are only one of several forms of 
communications. REE agencies use workshops, events, and conferences, 
list-serves, newsletters, our website, blogs, webinars, cooperative 
extension partnering, land-grant university networks, and social media 
to highlight and publicize USDA research on climate variability and 
change.
Insert 2
          Mr. Carbajal. . . .
          California Polytechnic State University San Luis Obispo, also 
        known as Cal Poly SLO, located in my district, is home to one 
        of the nation's leading agricultural programs. I recently had 
        the pleasure of visiting it, visiting the Cal Poly College of 
        Agriculture, Food and Environmental Science, where nearly 6,000 
        acres of agriculture production, processing, and research land 
        and facilities are available to students. During my visit, I 
        spoke with their staff and faculty, and toured a number of 
        centers of excellence. These centers are able to continue their 
        impressive work in part due to the critical partnership with 
        NIFA and ERS. What stakeholders, if any, were consulted for the 
        move that NIFA made?
          Dr. Hutchins. Thank you, sir, for the question.
          Secretary Perdue announced the move of NIFA in August of 
        2018, and I joined the Department in January of 2019, so I 
        honestly do not know of that consultation process that 
        occurred. I do know it was a deliberate process and it was one 
        that they felt like fulfilled a strong value proposition 
        overall. But I can't speak personally to the exact consultation 
        process.
          Mr. Carbajal. I would appreciate it if you could get back to 
        me in writing to share with me what that process entailed, and 
        if any California stakeholders were included, that would be 
        helpful to understand.
          Dr. Hutchins. Certainly.

    Stakeholder engagement was part of the process at the Secretary, 
Deputy Secretary and Mission Area levels. Upon the announcement the 
Department conducted a call with stakeholders. Stakeholders included 
economic and academic organizations and members that represent national 
interests, therefore California was included.
Insert 3
          Mr. Carbajal. On another issue, following the legalization of 
        commercial scale cannabis cultivation in California, there has 
        been significant development of medium- and large-scale 
        cannabis cultivation operations within my district in Santa 
        Barbara County. Many of these operations have replaced 
        traditional agriculture production, both within greenhouses and 
        open field settings. In many cases, this cannabis cultivation 
        is immediately adjacent to continued traditional agriculture 
        production, and a number of concerns have been raised about 
        impacts such as the potential taint of adjacent crops, such as 
        wine grapes, as well as issues related to direct and indirect 
        pesticide exposure. It is clear that more research is needed to 
        allow both the cannabis growers and their neighbors in 
        traditional agriculture production to adjust to this evolving 
        industry and make sound science-based decisions.
          Given the disconnect between Federal and state laws regarding 
        cannabis, are there ways that USDA can help and support 
        research in this critical area?
          Dr. Hutchins. Thank you for the question.
          You have raised several fair technical hypotheses that could 
        be tested in terms of is there an adverse effect one way or the 
        other from the proximity of a new crop like this to that, and 
        those can be tested. We can certainly explore the possibility 
        of that and try to understand that and those concerns more 
        directly, and so we can follow up on that.
          Mr. Carbajal. I would appreciate it if we could follow up on 
        this issue together.
          Dr. Hutchins. Okay.

    The 2018 Farm Bill legalized hemp, but not all forms of cannabis. 
Because marijuana production and other activities, including research, 
remains subject to the Federal Controlled Substances Act, USDA cannot 
fund or otherwise support cannabis research generally, but can only do 
so with respect to hemp; i.e., cannabis that is known by USDA to have 
tetrahydrocannabinols (THC) levels of .3 percent or lower.
Insert 4
          Mr. Panetta. Outstanding. Now, obviously I wanted to show our 
        appreciation in regards to the announcement yesterday by NIFA 
        in regards to the 32 grants totaling $14.3 million--excuse me, 
        30 grants totaling $24.1 million through the Organic 
        Agriculture Research and Extension Initiative, OREI, which I am 
        sure you have heard about today, as well and the Organic 
        Transitions Program. A couple of organizations in my district 
        are going to benefit from them. The Organic Farming Research 
        Foundation, as well as our Agriculture and Land-Based Training 
        Association, otherwise known as ALBA. They obviously rely on 
        these grants, and they have taken a few steps because of that 
        reliance, and some investments that they have already made 
        because of those grants. And so, they are awaiting those 
        grants.
          Now obviously, there is a delay that you know about when it 
        comes to those grants that was mentioned, and I was wondering 
        if you can elaborate a little bit more for the reason for the 
        delay on those grants?
          Dr. Hutchins. Sorry, I don't have the specifics on those 
        individual grants, but I can certainly come back to you on 
        that.

    NIFA is working diligently to complete the administrative review of 
Fiscal Year 2019 awards and process the final release of funds. The 
release of capacity and competitive annual funds typically occurs 1 to 
2 months after the beginning of each fiscal year. The release of funds 
this year will be, on average, an additional 2 months later than 
previous years. NIFA will prioritize final fund releases and post-award 
actions, as needed.
                                 ______
                                 
                          Submitted Questions
Response from Scott Hutchins, Ph.D., Deputy Under Secretary for 
        Research, Education, and Economics Mission, U.S. Department of 
        Agriculture
Questions Submitted by Hon. Stacey E. Plaskett, a Delegate in Congress 
        from Virgin Islands
    Question 1. As I mentioned in my opening statement, my constituents 
in the U.S. Virgin Islands are directly impacted by USDA research 
efforts. The University of the Virgin Islands received over $3 million 
from NIFA last year, and Dr. Robert Godfrey, the Director of the local 
Agricultural Experiment Station, directly told this Subcommittee how 
USDA-supported work is helping my farmer and communities deal with 
drought and hurricane response.
    Unfortunately, your efforts to relocate ERS and NIFA threaten this 
work and the work of researchers across this country. As of October 15, 
2019, NIFA had 264 vacancies and ERS had 214 vacancies. Your staff 
indicated that FY19 funds will not be completely dispersed until March 
2020, and FY20 funds will only be dispersed on time if you can meet 
your aggressive hiring goals. You are currently rehiring employees who 
just retired last month as re-employed annuitants to simply maintain 
critical mission functions, and you do not even have permanent office 
space secured in Kansas City.
    Taking all this into consideration--was this all a part of the 
plan? Did Secretary Perdue anticipate missed deadlines, gaps in 
service, and major staff shortages when he announced plans to relocate 
these agencies?
    Answer. At present, ERS and NIFA continue to deliver the same high-
quality work product and p[er]form mission critical functions. Some 
degree of attrition is anticipated with any re-location, which is why 
ERS and NIFA have both taken steps to ensure mission continuity 
throughout the transition and now as we rehire at these agencies.

    Question 2. When did you first become aware that ERS and NIFA would 
lose over \1/2\ their staff and would delay the full availability of 
FY19 funds until March 2020?
    Answer. I was aware of the attrition rate as employees either 
accepted or declined their directed reassignment letters. I was 
informed by NIFA in the first quarter of Fiscal Year 2020 that some 
grantees would see a delay in accessing their funding until March, 
while others such as the 1890s, 1994s, and nonprofit institutions would 
be prioritized and have access to their funding potentially earlier 
than would be typical.

    Question 3. I sent Secretary Perdue a letter requesting a plan that 
would prevent gaps in service. His response was less than satisfactory, 
only saying the agencies would ``ramp up hiring'' with nearly ``100 
positions and job announcements in the hiring pipeline.'' There are 478 
total vacancies. What is your specific, detailed plan for how these 
agencies will reach their appropriated staffing levels with clear 
deadlines?
    Answer. NIFA and ERS are diligently focused on hiring for vacant 
positions in both the National Capitol Region (NCR) and Kansas City 
(KC). As of January 15, 2020, NIFA has 79 total recruitments in process 
and ERS has 92 total recruitments in process. Both Agencies plan to 
continue hiring at an expedited pace. NIFA has received an average of 
78 applications and ERS received an average of 46 applications for each 
position posted.
    In addition to full time employees, NIFA and ERS have leveraged 
multiple short-term resources to assist in mission delivery. Those 
resources include re-employed annuitants, employee extensions for 
mission critical work, employee details from elsewhere in the 
Department and short-term contractor support.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. I am concerned that program delays will impact the 
operations of key stakeholders such as 1890 institutions and 1994 
Tribal colleges. In the hearing, it was noted that FY19 funding from 
NIFA will not be fully available to grantees until March 2020. What is 
the anticipated delay for subgrantees who are awaiting funds?
    Answer. NIFA's target is to have all FY 2019 annual funding 
released by March 2020. It is not within NIFA's purview to control, 
dictate or administer funds to sub-grantees.

    Question 2. How is USDA prioritizing funding availability? Will 
priority be given to groups who will face financial challenges due to 
this delay?
    Answer. Priority has been given to 1890s, 1994s, and nonprofit 
organizations. Additionally, NIFA has communicated with stakeholders 
that it will work with stakeholders to re-prioritize programs and 
projects based on critical stakeholder needs.

    Question 3. What outreach has USDA done to stakeholders who will be 
impacted by these emerging gaps in service, particularly stakeholders 
who will be most severely impacted like nonprofits, 1890 institutions, 
and 1994 Tribal colleges?
    Answer. NIFA has been in constant communication with these 
organizations as well as groups such as APLU to keep them apprised of 
the status of their access to funds.
Questions Submitted by Hon. Anthony Brindisi, a Representative in 
        Congress from New York
    Question 1. Under Secretary Hutchins--I appreciate your comments 
about reexamining agency processes and streamlining regulatory burdens 
in your grant-making processes. Going forward, how does NIFA anticipate 
it will manage the next cycle (or two) of proposals, with so few staff 
left to administer the process? In Fiscal Year 2019 and Fiscal Year 
2020 Congress has worked hard to increase funding for AFRI, as funding 
for agriculture research has lagged far behind the other sciences--and 
I'm very concerned that just at the time that we're starting to see 
real growth in the agency's resources, NIFA won't be adequately staffed 
to set priorities, administer programs, and provide the guidance and 
oversight that our land-grant universities need to develop their 
research programs.
    Answer. NIFA has been holding panels for FY20 as well as AFRI since 
the start of the fiscal year. At this point in time NIFA is not 
anticipating delays in administering grant programs this year.

    Question 2. Under Secretary Hutchins--The continuing resolution we 
passed at the end of September has a provision in it that gives the 
Secretary authority to waive the matching requirement of the Specialty 
Crop Research Initiative. I'm disappointed that USDA has interpreted 
that provision to expire on November 21, but I've been working with my 
colleagues here and on the Appropriations Committee to ensure that that 
waiver provision is extended through the rest of FY20 and beyond. A 100 
percent match is very difficult threshold for the smaller, very diverse 
specialty crop industries in New York to meet, which is why Cornell 
University pulled several projects that had advanced through the pre-
proposal stage from consideration. These are very important projects--
addressing downy mildew control in horticultural crops, post-harvest 
storage improvements for apples, and berry production methods, among 
others--that will not be considered in this round of funding because of 
the higher matching requirement. Going forward, how will NIFA work with 
specialty crop stakeholders to ensure that the SCRI does not 
disadvantage small--but essential--specialty crop industries in New 
York and the Northeast?
    Answer. On January 15, 2020, the National Institute of Food and 
Agriculture informed SCRI applicants that for FY 2020, in accordance 
with General Provision 762 of the Further Consolidated Appropriations 
Act, 2020 (Pub. L. 116-94), NIFA will waive the match requirement for 
recipients of grants under SCRI. This provision also applies to the 
Emergency Citrus Disease Research and Extension (ECDRE) program. This 
means that no matching funds will be required of FY 2020 applicants or 
awardees, and applicants will not need to submit a waiver request with 
their application. The deadline for SCRI full applications remains the 
same of March 13, 2020.
Questions Submitted by Hon. Kim Schrier, a Representative in Congress 
        from Washington
    Question 1. How many funded scientist positions at ARS remain 
vacant, both nationally and in the Pacific West region?
    Answer. 399 vacant Staff Years in ARS, 85 vacant Staff Years in 
Pacific West Area.

    Question 2. What is USDA's plan to fill these positions, and under 
what timeline?
    Answer. Our goal is to fill as many as possible by the end of the 
fiscal year (September 30, 2020). We are planning to use internal 
resources and contractor support to reduce our hiring backlog.

    Question 3. What is USDA's long-term plan to ensure we have 
scientists/leaders in place for consistent research?
    Answer. Once we reduce the hiring back log, we will be in a 
position to fill vacancies due to attrition in a timely manner. We are 
also expanding resources to handle the specialized recruitment 
requirements for scientists.

    Question 4. What is the process to expedite the hiring of the 
leadership positions in Washington State?
    Answer. ARS recently had two leadership vacancies in Pullman, WA. 
One position has been filled in the Sustainable Agroecosystems Research 
Unit. The other position will be re-advertised as the initial interview 
panel did not identify a suitable candidate. In general, once a vacancy 
occurs, individual research units submit their vacancies to the Area 
Office for approval. Once approved, the recruitment work commences. We 
recently expanded our recruitment capacity by providing specialized 
training to contractors so that they can more efficiently assist with 
scientific recruitments.

    Question 5. What is your process for ensuring that ARS stakeholders 
are kept up to date as it relates the filling of these vacant 
positions?
    Answer. The Area Director in Albany, CA regularly keeps 
stakeholders up to date. Additionally, many of the National Program 
Leaders in ARS often communicate with stakeholders regarding the status 
of vacancies. Vacant position postings are publicly available on 
USAJobs.gov.

Questions Submitted by Hon. Chellie Pingree, a Representative in 
        Congress from Maine
    Question 1. A recent Politico article reported that at least 38 ERS 
reports will be delayed and possibly even discontinued. Is that 
accurate? How many ERS reports will be limited, delayed, or 
discontinued? Please explain in detail what your plans are to ensure 
that there are no delays of reports or grants under ERS and NIFA's 
purview.
    Answer. The reports referenced represent a snapshot of the entire 
ERS product pipeline as of August 2019. As is standard ERS practice, 
many of those items remain at various stages in the pipeline with no 
set date for publication. Several items on that snapshot have been 
published, including the Examination of Veterans Diet Quality, and ERS 
has published all calendared reports on time. ERS has published all 
calendared work products on schedule.

    Question 2. Please provide a detailed report on what the staffing 
levels are at NIFA and ERS. Please include monthly totals for how many 
NIFA and ERS employees are based in Washington, D.C. for each month of 
2019, as well as monthly totals for how many NIFA and ERS employees are 
based in Kansas City for each month of 2019. Given the incredible 
reduction in agency staff capacity, what is USDA's specific hiring plan 
for all the positions that have been vacated due to the relocation?
    Answer. As of the pay period ending January 4, 2020, NIFA has 102 
full time employees (FTEs) with 18 based in D.C. and 84 based in Kansas 
City (KC). Below is data for each pay period after the direct 
reassignment report date for employees relocating to KC:

------------------------------------------------------------------------
            NIFA                          Positions Occupied
------------------------------------------------------------------------
   Pay Period Ending Date        Total           D.C.            KC
------------------------------------------------------------------------
                 10.12.19              88             18             70
                 10.26.19              92             18             74
                  11.9.19              95             18             77
                 11.23.19              93             18             75
                  12.7.19              92             18             74
                 12.21.19             102             18             84
                   1.4.20             102             18             84
------------------------------------------------------------------------

    NIFA is diligently focused on hiring for vacant positions in both 
D.C. and KC. As of January 15, 2020, NIFA has 79 total recruitments in 
process and plans to continue hiring at an expedited pace. NIFA has 
received an average of 78 applications for each position posted.

------------------------------------------------------------------------
            ERS                           Positions Occupied
------------------------------------------------------------------------
   Pay Period Ending Date        Total           D.C.            KC
------------------------------------------------------------------------
                 10.12.19             118             69             49
                 10.26.19             122             69             53
                  11.9.19             122             69             53
                 11.23.19             125             68             57
                  12.7.19             123             68             55
                 12.21.19             123             68             55
                   1.4.20             123             68             55
------------------------------------------------------------------------

    ERS is diligently focused on hiring for vacant positions in both 
D.C. and KC. As of January 15, 2020, ERS has 111 total recruitments in 
process and plans to continue hiring at an expedited pace. ERS has 
received an average of 46 applications for each position posted.
    In addition to FTEs, NIFA and ERS have leveraged multiple short-
term resources to assist in mission delivery. Those resources include 
re-employed annuitants, employee extensions for mission critical work, 
employee details from elsewhere in the Department and contractors.

    Question 3. Do you believe that USDA needs $25 million of taxpayer 
money for a relocation that has already happened? If yes, why? Please 
provide specific breakdown of what USDA needs additional funding for.
    Answer. NIFA and ERS will operate under their appropriation for 
Fiscal Year 2020.

Question Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question. Background: There is a concern in the agriculture 
research community about the public-private partnerships required 
matching funds. Currently, the Organic Research and Extension 
Initiative (OREI) requires 100% matching of private funds for all 
projects that benefit a single commodity. Exemptions exists for 
projects that will benefit the organic industry as a whole, span across 
multiple crop study systems, or study a minor commodity. Organic 
stakeholders have interpreted these qualifications to include organic 
production, since ``organic'' itself is considered a minor commodity. 
However, in the official wording (below), this is not made explicit and 
potentially left up for interpretation by the program officer.
    Official wording from the RFA: The Agriculture Improvement Act of 
2018 (H.R. 2) removed the matching requirements for some NIFA 
competitive grants imposed by the Agricultural Act of 2014. Therefore, 
there are changes to the matching requirements for some funds awarded 
in 2019.
    For FY 2019, for the OREI program, if a grant provides a particular 
benefit to a specific agricultural commodity, the grant recipient is 
required to match the USDA funds awarded on a dollar-for-dollar basis 
from non-Federal sources with cash and/or in-kind contributions. (See 
Part IV, B., 6. for details.) 
---------------------------------------------------------------------------
    * Editor's note: The Fiscal Year 2020 Request for Applications is 
retained in Committee file and available at: https://nifa.usda.gov/
sites/default/files/rfa/FY2020-OAREI-RFA-20191206.pdf.
---------------------------------------------------------------------------
    NIFA may waive the matching funds requirement for a grant if NIFA 
determines that: (1) the results of the project, while of particular 
benefit to a specific agricultural commodity, are likely to be 
applicable to agricultural commodities generally; or (2) the project 
involves a minor commodity, the project deals with scientifically 
important research, and the grant recipient is unable to satisfy the 
matching funds requirement.
    Question: The current private funding matching requirements allow 
for exemptions for studies related to a minor commodity. Organic is 
considered a commodity class and projects funded under OREI have 
received waivers for the matching requirements. Can you confirm that 
organic crops are considered a minor commodity and therefore exempt 
from the matching requirements?
    Answer. The Agriculture Improvement Act of 2018 removed the 
matching requirements for some National Institute of Food and 
Agriculture (NIFA) competitive grants imposed by the Agricultural Act 
of 2014. Therefore, there are changes to the matching requirements for 
some funds awarded in 2019, and thereafter. In FY 2020, for the Organic 
Agriculture Research and Extension Initiative (OREI) program, if a 
grant provides a particular benefit to a specific agricultural 
commodity, the grant recipient is required to match the USDA funds 
awarded on a dollar-for-dollar basis from non-Federal sources with cash 
and/or in-kind contributions. There isn't an exemption for a minor 
commodity, however, NIFA may waive the matching funds requirement for 
an OREI grant if NIFA determines that: (1) the results of the project, 
while of particular benefit to a specific agricultural commodity, are 
likely to be applicable to agricultural commodities generally; or (2) 
the project involves a minor commodity, the project deals with 
scientifically important research, and the grant recipient is unable to 
satisfy the matching funds requirement. Should applicants pursue the 
number two waiver, they need to submit a justification at the time of 
application on how they meet the waiver request by defining why they 
are a minor commodity, proving the scientific importance of the 
proposed project, and showing an inability to satisfy the match 
requirement. The deadline for FY 2020 OREI applications is January 30, 
2020.
Question Submitted by Hon. Neal P. Dunn, a Representative in Congress 
        from Florida
    Question. There continues to be deceiving rhetoric describing the 
relocation as a way to gut the agricultural research being done by 
these agencies. What is your long-term vision for these agencies and 
how this relocation will ultimately be beneficial for agricultural 
research?
    Answer. The relocation of ERS and NIFA will strengthen the agencies 
in the long-term. The relocation has and will continue to allow us to 
hire and retain highly qualified staff and bring Federal resources 
closer to stakeholders. Additionally, the relocation will allow the 
agencies an opportunity to evaluate their business processes and become 
more effective, efficient, and responsive to stakeholders.
Question Submitted by Hon. K. Michael Conaway, a Representative in 
        Congress from Texas
    Question. Sections 7612 and 7613 of the 2018 Farm Bill direct USDA 
to streamline reporting requirements in the annual Plan of Work report 
and the Time and Effort reports. The farm bill language specifically 
directs USDA to work with land-grant university stakeholders to get 
this done. What is the status of implementing these two sections? 
Please describe your coordination efforts with land-grant stakeholders 
to implement these two sections.
    Answer. Regarding Section 7612, the National Institute of Food and 
Agriculture's (NIFA) Plan of Work (POW) and REEport integration project 
has been working to implement the 2015 Plan of Work Panel of Experts 
recommendations to consolidate the Plan of Work (POW) system into 
REEport. NIFA plans to continue to work together with land-grant 
university (LGU) partners to find innovative solutions for meeting the 
legislative requirements of Agricultural Research, Education, and 
Extension Reform Act, improve data quality, and lessen reporting 
burden.
    Regarding Section 7613, NIFA has met with the Office of Management 
and Budget (OMB) and held their first stakeholder input session at the 
annual National Extension and Research Administrative Officers 
Conference in April 2019, attended by over 200 land-grant university 
representatives. NIFA plans on holding additional stakeholder input 
sessions, and then will develop draft guidance. After review by OMB, 
NIFA will gather stakeholder input on the draft guidance before making 
the guidance final.
Question Submitted by Hon. Mike Bost, a Representative in Congress from 
        Illinois
    Question. The 2018 Farm Bill expanded the Farm and Rancher Stress 
Assistance Network program, which is a vital tool to ensure our 
producers are getting the help they need. As the Ranking Member of the 
Disability Assistance and Memorial Affairs Subcommittee for the 
Veterans Affairs Committee, I've worked firsthand to reduce veterans' 
suicide, including veteran farmers. Given the state of the ag economy, 
difficult planting conditions, and stress about the markets, we need to 
make sure that our producers are being looked after. What is the status 
of the implementation of this program? Other than FRSAN, what other 
ways does your mission area provide mental health resources to 
America's farmers and ranchers?
    Answer. On October 22, 2019, USDA's National Institute of Food and 
Agriculture (NIFA) announced $1.92 million for four competitive grants 
supporting projects to provide stress assistance programs to 
individuals engaged in farming, ranching, and other agriculture-related 
occupations. These Farm and Ranch Stress Assistance Network (FRSAN) 
program projects were awarded to four regional entities to help launch 
FRSAN. The long-term expectation is that agriculture producers and 
their families will have greater opportunities to find help in their 
communities and states through outreach and the Cooperative Extension 
System. The FY 2020 FRSAN Request for Applications should be published 
within the next few months.
    USDA has tools and options within its programs that county offices 
can leverage to help a producer achieve financial success on their 
farm. In addition, USDA has access to resources and referral services 
as a result of collaborations with the U.S. Department of Health and 
Human Services' (HHS), Substance Abuse and Mental Health Services 
Administration (SAMHSA) and the U.S. Department of Veterans Affairs 
(VA). The following efforts at USDA are currently dedicated to 
supporting the behavioral and mental health needs of individuals in the 
agricultural sector:

  <bullet> AgrAbility program building service capacity on national, 
        regional, state, and local levels through;

    <ctr-circle> Direct Assistance aimed at accommodating disabilities 
            in individuals who engage in farming and farm-related 
            occupations;

    <ctr-circle> Farm Safety Education;

    <ctr-circle> Marketing direct to public initiatives in AgrAbility-
            related education, and assistance;

    <ctr-circle> Networking to increase sharing of resources and 
            sustainability of projects past NIFA funding. The National 
            AgrAbility Project has been involved with Mental Health 
            First Aid (MHFA) for several years and has a trained 
            instructor involved in conducting programs. The MHFA 
            training has been offered at the National AgrAbility 
            Training Workshops in both 2018 and 2019.

    In addition to FRSAN, NIFA has the following specific programs that 
have components that may increase understanding of suicide risk, and 
thus promote its prevention and greater overall behavioral health 
include:

  <bullet> Rural Health and Safety Education (RHSE) research shows that 
        suicide is the leading cause of death among people with 
        substance use disorders (SUDs). RHSE is a competitive grant 
        program that seeks to address the needs of rural Americans by 
        providing individual and family health education programs. Per 
        Congressional guidance in FYs 2017-2019, proposals emphasized 
        the prevention and/or reduction of opioid misuse and abuse.

  <bullet> Agricultural Risk Management Education Program (ARME) is a 
        competitive grant program that educates agricultural producers 
        on the full range of risk management strategies. It provides 
        funding for result- and outcome-based risk management education 
        projects to help producers learn and use tools and approaches 
        that can reduce the adverse effects of the uncertainties of 
        weather, yields, prices, credit, government policies, global 
        markets, and other factors including human resources and legal 
        issues.

      NIFA and the Farm Service Agency (FSA) have an interagency 
        agreement in which they are working on the development of 
        training, resources, and outreach materials that support USDA 
        FSA field employees that work with farmers and ranchers. FSA's 
        priority is to adequately support field employees with training 
        on how to serve stressed customers by supporting them with 
        their mental and physical health. FSA has more than 10,000 
        employees who engage with producers daily through farm and 
        office visits in more than 2,000 county offices throughout the 
        United States.

                                  <all>
</pre></body></html>
